SEMIANNUAL REPORT TO THE


CONGRESS                                October 1, 2003 – March 31, 2004




OFFICE OF INSPECTOR GENERAL
FEDERAL DEPOSIT INSURANCE CORPORATION
                      History of the FDIC OIG
■   1974: The Office of Management Systems and             effective on April 17, 1989. This resolution
    Financial Audits was headed by Robert                  recognized that the IG Act Amendments of
    Barnett—who later became Chairman of the               1988 required the Corporation to establish an
    FDIC. This office conducted IT operations              OIG with an IG who functions under the gen-
    and all audits for the Corporation. The Finan-         eral supervision of the Chairman. OCAII was
    cial Audits Branch of the office consisted of          redesignated the Office of Inspector General.
    eight people. No Audit Committee existed               The position of Director of OCAII became
    and staff did not work under the American              Inspector General and the incumbent Direc-
    Institute of Certified Public Accountants, U.S.        tor Robert Hoffman was designated Acting IG
    General Accounting Office, or Institute of             for several months and then IG.
    Internal Auditors standards.
                                                       ■   In October 1989 the Federal Home Loan
■   By October 1975, this office had become the            Bank Board OIG became a part of the FDIC
    Office of Corporate Audits, and by 1979, the           OIG and the office doubled in size.
    office began developing an Investigative
    function.                                          ■   Robert Hoffman retired in 1993 and James
                                                           Renick was then selected by Acting Chairman
■   In a Board Resolution dated December 6,                Andrew Hove to serve as Inspector General.
    1982, the responsibilities of the Office of Cor-
    porate Audits were redefined and the name of       ■   Congress amended the IG Act in 1993 to des-
    the office was changed to Office of Corporate          ignate the IG position at the FDIC a Presiden-
    Audits and Internal Investigations (OCAII).            tial appointment; James Renick was named
    The office reported to the Appointive Direc-           Acting Inspector General when the amend-
    tor (that is—the Director representing the             ment became effective.
    political party out of power) and the Budget
    and Management Committee—comprised of              ■   The Resolution Trust Corporation’s (RTC)
    Division and Office heads from the                     sunset in December 1995 led to a number of
    Corporation.                                           RTC OIG staff merging into the FDIC OIG,
                                                           effective January 1, 1996.
■   A resolution dated May 18, 1984, established
    that OCAII would report to the Chairman            ■   April 29, 1996: Gaston L. Gianni, Jr. became
    and laid out responsibilities of the first Audit       the FDIC’s first Inspector General appointed
    Committee.                                             by the President.

■   On March 14, 1989, a Board resolution was          ■   April 17, 2004: Happy 15th Anniversary to
    signed—the provisions of which were to be              the FDIC OIG!
SEMIANNUAL REPORT TO THE


CONGRESS                                October 1, 2003 – March 31, 2004




OFFICE OF INSPECTOR GENERAL
FEDERAL DEPOSIT INSURANCE CORPORATION
                                                                                        Contents

Inspector General’s Statement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Highlights. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Management and Performance Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Investigations—Making an Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
OIG Organization—Pursuing OIG Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
Reporting Terms and Requirements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
Statistical Information Required by the Inspector General Act of 1978, as amended . . . . . . . . . . . . . . . 55
Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
OIG Congratulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

Tables
Table 1: Significant OIG Achievements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50
Table 2: Nonmonetary Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

Figures
Figure 1: Products Issued and Investigations Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
Figure 2: Questioned Costs/Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
Figure 3: Fines, Restitution, and Monetary Recoveries Resulting
          from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51




                                                                                                                      Management and Performance Challenges iii
                                                      Inspector General’s
                                                      Statement

When I wrote my last semiannual report state-         emphasized the OIG’s cooperative relationship
ment in October 2003, the Inspector General           with the FDIC. I indicated that both the Chair-
(IG) community was in the midst of commemo-           man and Vice Chairman of the FDIC provide a
rating the 25th anniversary of the IG Act of 1978,    very supportive “tone at the top” that enables us
and that important event was fittingly acknowl-       to carry out our statutory responsibilities. My
edged throughout the community. As Vice Chair         office appreciates and is committed to continu-
of the President’s Council on Integrity and Effi-     ing that relationship into the future.
ciency, I thank all who contributed to the success
of that anniversary. And now, even closer to          This semiannual report discusses our audit and
home, another milestone occurs. On April 17,          evaluation work over the past 6 months to
2004, my office proudly marked its 15th anniver-      address the management and performance chal-
sary. The Federal Deposit Insurance Corporation       lenges that we identified and communicated to
(FDIC) Office of Inspector General (OIG) was          the Chief Financial Officer in December 2003 for
established in 1989, pursuant to the IG Act           inclusion in the Corporation’s annual report.
Amendments of 1988. The Congress amended              Several significant audits during the reporting
the IG Act in 1993 to designate the IG position at    period focused on the challenge of Management
the FDIC as a Presidential appointment. Since         and Analysis of Risks to the Insurance Funds,
April 29, 1996, I have served as the first FDIC IG    including our audit resulting in a report entitled
appointed by the President. Thus, I have just         Observations from OIG Material Loss Reviews
concluded my 8th year as IG at the FDIC.              Conducted 1993 through 2003. That report
                                                      addresses recurring and root causes of the fail-
The role of an OIG in any agency is unique. At        ures of 10 financial institutions and reports on
the FDIC, although we are an integral part of the     the common stages of such failures. We also
Corporation, unlike any other FDIC division or        issued a report during the period on the Corpo-
office, our legislative underpinning requires us to   ration’s follow-up of Bank Secrecy Act (BSA)
operate as an independent and objective unit at       violations in which we reported that the FDIC
the same time—an organizational placement             needs to strengthen its follow-up process for BSA
that is potentially problematic. The FDIC OIG is      violations to ensure to the greatest extent possi-
fortunate, however, in that over the past years, we   ble that institutions comply with Department of
have established an excellent working relation-       the Treasury and FDIC anti-money laundering
ship with the Corporation. When I testified at a      requirements.
March 2004 hearing on Oversight of the FDIC,
held by the House Financial Services Committee,       Equally important is our body of work in the
Subcommittee on Oversight and Investigations, I       information technology area, much of which will

                                                                          Management and Performance Challenges 1
       support our 2004 work under the Federal Infor-        has been a principal focus over the past 6 months.
       mation Security Management Act of 2002. In            We have submitted our budget requests for 2004
       that connection, I wish to highlight the impres-      and 2005, and each marks a decrease from the
       sive and well-deserved achievement of our Assis-      previous year. In fact, fiscal year 2005 will mark
       tant Inspector General for Audits, Russell Rau,       the ninth consecutive year of such a decrease. We
       who was honored with a Federal 100 Award dur-         are also undertaking our first OIG employee sur-
       ing the reporting period by Federal Computer          vey and expect to gain helpful insights from our
       Week. These awards recognize individuals in gov-      staff on how we might improve our operations,
       ernment, industry, and academia for their contri-     working conditions, and overall effectiveness.
       butions to the development, acquisition, and          Looking ahead, we will continue to emphasize
       management of federal information technology.         information technology and related security at
       Rus was cited for his vision, leadership, and pio-    the Corporation. The new Chief Information
       neering efforts in the information technology         Officer (CIO) is now in place and we are partici-
       audit and evaluation program at the FDIC and          pating in an advisory capacity at meetings of the
       for coordinating Federal Information Security         CIO Council. We also have advisory participa-
       Management Act activities among OIGs and oth-         tion on the Audit Committee’s Information
       ers governmentwide.                                   Technology Security Subcommittee, and with the
       The investigations featured in this semiannual        Division of Information Resources Manage-
       report show that our work continues to focus on       ment’s Transformation Advisory Group. These
       cases of fraud arising at or impacting financial      are clear indications of coordination with man-
       institutions, restitution and other debt owed to      agement on matters of mutual interest, and we
       the FDIC, and misrepresentations regarding            appreciate the opportunity for input. Addition-
       FDIC insurance or affiliation, as we seek to          ally, the Corporation’s Office of Internal Control
       ensure integrity in FDIC and banking industry         Management recently became the Office of
       operations and activities. Of special note during     Enterprise Risk Management (OERM), represen-
       the reporting period, John Crawford, one of the       tative of that office’s intent to adopt a more
       Special Agents from our Atlanta office, received a    proactive and enterprise-wide approach to inter-
       letter of commendation from the Director of the       nal risk management activities. This is another
       Federal Bureau of Investigation (FBI) for his         positive step, and we look forward to continuing
       exceptional work in the joint investigation with      to work closely with OERM and sharing infor-
       the FBI and Internal Revenue Service-Criminal         mation as that office sets out in a new direction.
       Investigations of the embezzlement of over            I close by thanking all who have supported me in
       $48 million from the failed Oakwood Deposit           the past 8 years as I have served as Inspector
       Bank Company, Oakwood, Ohio.                          General at the FDIC—the Chairmen and Vice
       As an organization, we have also been working         Chairmen of the FDIC, Members of the Con-
       aggressively in pursuit of the goals outlined in      gress, the FDIC Board of Directors, the Audit
       our recently issued Strategic Plan for 2004–2008,     Committee, FDIC corporate management, oth-
       as evidenced in the many activities and initiatives   ers in the IG community, the leadership of the
       outlined in the OIG Organization section of this      Office of Management and Budget, individuals
       report. We have engaged in efforts to add value       from other private and public sector agencies
       and make an impact on the Corporation’s pur-          and organizations, and especially the members of
       suit of its mission. We have taken advantage of       the FDIC OIG, past and present, who have
       multiple opportunities for communication and          worked with such dedication to the mission of
       outreach to the Chairman, the Congress, OIG           both the OIG and the FDIC.
       employees, and other stakeholders. In that
       regard, we are preparing for our sixth external
       client survey, an important communication vehi-
       cle, to obtain feedback from corporate manage-
       ment. Additionally, aligning our human
       resources to support the OIG mission and work-        Gaston L. Gianni, Jr.
       ing to effectively and efficiently manage             Inspector General
       resources and enhance the quality of our efforts      April 30, 2004

2 SEMIANNUAL REPORT TO THE CONGRESS
                                                     Overview

Management and                                        6. Management and Security of Information
                                                         Technology Resources
Performance Challenges
                                                      7. Security of Critical Infrastructure
The Management and Performance Challenges
section of our report presents OIG results of         8. Management of Major Projects
audits, evaluations, and other reviews carried out    9. Assessment of Corporate Performance
during the reporting period in the context of the
OIG’s view of the most significant management        10. Cost Containment and Procurement
and performance challenges currently facing the          Integrity
Corporation. We identified the following
10 management and performance challenges,            OIG work conducted to address these areas dur-
and, in the spirit of the Reports Consolidation      ing the current reporting period includes
Act of 2000, we presented our assessment of          17 audit and evaluation reviews containing ques-
them to the Chief Financial Officer of the FDIC      tioned costs of nearly $4.3 million and 51 non-
in December 2003. The Act calls for these chal-      monetary recommendations; comments and
lenges to be presented in the FDIC’s consolidated    input to the Corporation’s draft policies in sig-
performance and accountability report. The           nificant operational areas; participation at meet-
FDIC included such reporting as part of its          ings, symposia, conferences, and other forums to
2003 Annual Report. Our work has been and            jointly address issues of concern to the Corpora-
continues to be largely designed to address these    tion and the OIG; and assistance provided to the
challenges and thereby help ensure the FDIC’s        Corporation in such areas as concealment of
successful accomplishment of its mission.            assets cases and review of the Corporation’s draft
                                                     Strategic Plan, Annual Performance Plan, and
 1. Adequacy of Corporate Governance in              Annual Report. (See pages 9–27.)
    Insured Depository Institutions

 2. Protection of Consumer Interests
                                                     Investigations
 3. Management and Analysis of Risks to the          In the Investigations section of our report, we
    Insurance Funds
                                                     feature the results of work performed by OIG
 4. Effectiveness of Resolution and Receivership     agents in Washington, D.C., Atlanta, Dallas, and
    Activities                                       Chicago who conduct investigations of alleged
                                                     criminal or otherwise prohibited activities
 5. Management of Human Capital                      impacting the FDIC and its programs. In con-

                                                                         Management and Performance Challenges 3
        ducting investigations, the OIG works closely        of our Special Agents by the Director of the Fed-
        with U.S. Attorneys’ Offices throughout the          eral Bureau of Investigation and several gestures
        country in attempting to bring to justice indi-      of appreciation extended by the OIG to FDIC
        viduals who have defrauded the FDIC. The legal       staff and law enforcement officials who have
        skills and outstanding direction provided by         helped bring about successful investigations.
        Assistant United States Attorneys with whom we       (See pages 29–40.)
        work are critical to our success. The results we
        are reporting for the last 6 months reflect the
        efforts of U.S. Attorneys’ Offices throughout the    OIG Organization
        United States. Our write-ups also reflect our        In the Organization section of our report, we
        partnering with the Federal Bureau of Investiga-     note many significant activities and initiatives
        tion, the Internal Revenue Service, and other law    that the FDIC OIG has pursued over the past
        enforcement agencies in conducting investiga-        6 months in furtherance of our four main strate-
        tions of joint interest. Additionally, we acknowl-   gic goals and corresponding objectives. These
        edge the invaluable assistance of the FDIC’s         activities complement and support the audit,
        Divisions and Offices with whom we work              evaluation, and investigative work discussed in
        closely to bring about successful investigations.    the earlier sections of our semiannual report.
                                                             Activities of OIG Counsel and cumulative OIG
        Investigative work during the period led to          results covering the past five reporting periods
        indictments or criminal charges against 15 indi-     are also shown in this section. (See pages 41–51.)
        viduals and convictions of 9 defendants. Crimi-
        nal charges remained pending against
        33 individuals as of the end of the reporting        Statistical Tables Required
        period. Fines, restitution, and recoveries stem-
        ming from our cases totaled about $1.7 million.
                                                             Under the Inspector General Act
        This section of our report also includes an          The statistical tables required under the Inspec-
        update of the work of our Electronic Crimes          tor General Act, as amended, are included here.
        Team and acknowledges an award given to one          (See pages 55–59.)




4 SEMIANNUAL REPORT TO THE CONGRESS
                                                       Highlights

■   The Office of Audits issues 17 reports contain-        the Reports Consolidation Act of 2000. Man-
    ing total questioned costs of $4,288,198.              agement of major projects is a newly identi-
                                                           fied challenge. The Corporation includes a
■   OIG reports include 51 nonmonetary recom-              listing describing the challenges in its Annual
    mendations to improve corporate operations             Report for 2003.
    and activities. Among these are recommenda-
    tions to improve the effectiveness of informa-     ■   The OIG provides briefing materials to the
    tion technology security controls, amend               newest FDIC Director, Thomas J. Curry, con-
    working agreements with state banking                  firmed by the U.S. Senate on December 9,
    departments, strengthen the Corporation’s              2003, to familiarize him with the mission and
    human capital program, enhance the supervi-            work of the OIG at the FDIC.
    sory safety and soundness rating appeals
    process, and improve documentation sup-            ■   The Inspector General testifies before the
    porting rates charged to receiverships.                House Financial Services Committee, Sub-
                                                           committee on Oversight and Investigations, at
■   OIG investigations result in 15 indictments/           a hearing related to Oversight of the FDIC. The
    informations; 9 convictions; and approxi-              Inspector General speaks to the role of the
    mately $1.7 million in total fines, restitution,       OIG and our relationship with the Corpora-
    and other monetary recoveries.                         tion, fiscal year 2003 OIG accomplishments,
                                                           and the management and performance chal-
■   The OIG aggressively pursues its strategic             lenges facing the Corporation. Subsequent to
    goals and related objectives in pursuit of the         the hearing, the Inspector General (IG) is
    OIG mission. Numerous activities and initia-           asked by the Subcommittee Chairman, the
    tives are carried out to add value and achieve         Honorable Sue Kelly, to respond to questions
    impact; communicate effectively with the               for the hearing record.
    Chairman, the Congress, OIG employees and
    other stakeholders; align our human capital        ■   The OIG issues its report on Supervisory
    with the OIG mission; and effectively manage           Actions Taken for Bank Secrecy Act Violations,
    OIG resources.                                         reporting that the FDIC needs to strengthen
                                                           its follow-up process for Bank Secrecy Act vio-
■   The OIG provides the Chief Financial Officer           lations to ensure to the greatest extent possible
    with the OIG’s assessment of the most signifi-         that institutions comply with Department of
    cant management and performance chal-                  the Treasury and FDIC anti-money launder-
    lenges facing the Corporation, in the spirit of        ing requirements.

                                                                                                            Manage-
                                                                                    ment and Performance Challenges 5
       ■   The OIG’s investigation with the Treasury               2002–2006, studying the OIG’s employee feed-
           OIG, Federal Bureau of Investigation, and               back approach, staff training histories, and a
           Internal Revenue Service Criminal Investiga-            possible mentoring program for the OIG.
           tion leads to the indictment of a former owner
           and board member of Sinclair National Bank,         ■   The OIG sponsors a FISMA meeting, bringing
           charging the owner in a fraud scheme that               together representatives of more than 40 fed-
           allegedly led to the bank’s failure. A contractor       eral agencies, including the U.S. General
           who sold and serviced sub-prime loans to                Accounting Office and the Office of Manage-
           Sinclair was also charged. The indictment               ment and Budget to share information, ideas,
           includes a forfeiture count seeking $15 million         and best practices related to implementation
           each from the defendants.                               of FISMA governmentwide.

       ■   Assistant Inspector General for Audits, Russell     ■   OIG Counsel’s Office provides advice and
           Rau is named the recipient of a Federal 100             counsel on a number of issues, including
           award from Federal Computer Week. Mr. Rau               closed bank matters and bank supervision, the
           was recognized for his vision, leadership, and          Bank Secrecy Act, security practices for
           pioneering efforts in (1) spearheading the              receiverships, investigative matters, contract
           information technology audit and evaluation             interpretations, and various ethics matters.
           program at the FDIC OIG and (2) coordinat-              Counsel is involved in 22 litigation matters
           ing critical Federal Information Security Man-          that are awaiting further action by the parties
           agement Act of 2002 (FISMA) activities                  or rulings by the court or other adjudicatory
           among IG offices and others governmentwide.             bodies.
       ■   The OIG’s fiscal year 2004 appropriation,
                                                               ■   The OIG reviews and comments on 1 pro-
           totaling $30.1 million, is signed into law by
                                                                   posed formal FDIC regulation, 14 proposed
           the President on January 23, 2004, Public Law
                                                                   directives, and responds to 5 requests under
           108-199. This budget supports a reduced
                                                                   the Freedom of Information Act. Substantive
           authorized staffing level of 168, or 22 fewer
                                                                   comments are provided to the Corporation
           staff than authorized in fiscal year 2003. The
                                                                   related to proposed policies on various aspects
           proposed fiscal year 2005 OIG budget of
                                                                   of personnel, corporate leave, and wireless
           $29.9 million was included in the President’s
           budget that was transmitted to the Congress             technology matters.
           on February 2, 2004. The budget will support
           an authorized staffing level of 160, a further      ■   The OIG issues a report on Observations from
           reduction of 8 authorized staff (5 percent)             OIG Material Loss Reviews Conducted 1993
           from fiscal year 2004. Fiscal year 2005 will            through 2003, which addresses recurring and
           become the ninth consecutive year OIG budg-             root causes of failure for the 10 FDIC-
           ets have decreased after adjusting for inflation.       supervised institutions that caused material
                                                                   losses to the Bank Insurance Fund during the
       ■   The OIG holds an OIG-wide conference, the               past 10 years. Major causes of failure identified
           theme of which is “What’s Next” to focus on             are: inadequate corporate governance, poor
           the OIG’s priorities and efforts in carrying out        risk management, and lack of diversification.
           its audit, evaluation, investigative, and other         Four common stages of failure identified are:
           work to help ensure the successful accom-               often risky strategies led by dominant individ-
           plishment of the Corporation’s mission.                 uals, rapid growth with poor risk management
           Corporate executives and the FDIC Vice                  and inadequate diversification, deterioration
           Chairman participate at the conference and              with resistance to supervisory concerns, and
           share perspectives to help ensure the OIG               massive losses leading to failure.
           adds maximum value and impact to all FDIC
           programs and activities.                            ■   The OIG coordinates with and assists manage-
                                                                   ment on a number of initiatives, including
       ■   The OIG continues to implement aspects of               serving in an advisory capacity on the Audit
           its Human Capital Strategic Plan for                    Committee’s Information Technology Security

6 SEMIANNUAL REPORT TO THE CONGRESS
    Subcommittee and the Chief Information                FDIC’s 2003 Annual Report. OIG comments
    Officer Council; participating on the Steering        are advisory in nature and include suggestions
    Committee for the Corporation’s Comprehen-            regarding the presentation of information in
    sive Human Resources Information System;              the report that we deemed would be helpful to
    Office of Investigations and Office of Audits         readers.
    Executives’ participation at the Division of
    Supervision and Consumer Protection Field         ■   OIG Special Agent John Crawford receives a
    Office Supervisor and other meetings; Office          letter of commendation from the Director of
    of Investigations’ Electronic Crimes Team’s           the Federal Bureau of Investigation. The com-
    coordination with the Division of Information         mendation recognizes Special Agent Crawford
    Resources Management (DIRM), Division of              for exceptional work on the joint investigation
    Resolutions and Receiverships, and the Legal          with the Federal Bureau of Investigation and
    Division; and Office of Audits’ coordination          Internal Revenue Service of an embezzlement
    with the Corporation’s New Financial Envi-            of over $48 million from Oakwood Deposit
    ronment, Asset Servicing Technology                   Bank Company, Oakwood, Ohio.
    Enhancement Project, Central Data Reposi-
    tory, and DIRM Transformation projects.           ■   The OIG acknowledges the efforts of FDIC
                                                          examination staff and law enforcement offi-
■   The OIG provides advisory comments to the
                                                          cials who have helped the OIG bring about
    Division of Finance on drafts of the FDIC
                                                          successful investigations.
    Strategic Plan and 2004 Annual Performance
    Plan. We acknowledge continuing efforts to
    improve the plans and offer observations and      ■   As Vice Chair of the President’s Council on
    suggestions.                                          Integrity and Efficiency, the Inspector General
                                                          leads the Inspector General community’s
■   The OIG’s legislative proposal to provide the         25th anniversary activities and testifies before
    FDIC with enforcement tools to limit misrep-          the House Government Reform Subcommit-
    resentations regarding FDIC insurance cover-          tee on Government Efficiency and Financial
    age, included in H.R. 1375: Financial Services        Management to offer commentary on the
    Regulatory Relief Act of 2003, is passed by the       25th anniversary and identify possible legisla-
    House of Representatives on March 24, 2004,           tive changes. He also participates as a presen-
    and referred to the Senate.                           ter at numerous professional conferences and
                                                          other forums, and shares information and
■   The OIG responds to the Chief Financial Offi-         best practices with a delegation of foreign visi-
    cer’s request for comments on a draft of the          tors from African countries.




                                                                                                          Highlights 7
                                            Management and
                                            Performance
                                            Challenges

                                            In prior semiannual reports, we have identified
                                            our view of the most significant issues facing the
The Federal Deposit Insurance Corpora-      Corporation as it carried out its mission. Over
tion (FDIC) is an independent agency        the past 7 years, we have reported our work in
created by the Congress to maintain         the context of these major issues in our semi-
stability and confidence in the nation’s    annual reports, largely in response to the request
banking system by insuring deposits,        of various congressional Committees that OIGs
                                            identify these issues across the government. In
examining and supervising financial
                                            our more recent semiannual reports, in the spirit
institutions, and managing receiver-        of the Reports Consolidation Act of 2000, we
ships. Approximately 5,300 individuals      present our work in the context of “the most sig-
within seven specialized operating divi-    nificant management and performance chal-
sions and other offices carry out the       lenges” facing the Corporation.
FDIC mission throughout the country.
According to the Corporation’s Letter to    In December 2003 we updated our assessment of
                                            these challenges and provided them to the Cor-
Stakeholders, issued for the 4th Quarter
                                            poration. The 10 challenges we have identified
2003, the FDIC insured $3,451 trillion in
                                            are listed below in priority order and fall under
deposits for 9,196 institutions, of which   two categories. The first category, which includes
the FDIC supervised 5,313. The Corpora-     challenges 1 through 4, relates to rather broad
tion held insurance funds of $46 billion    corporate and industry issues, and the second
to ensure depositors are safeguarded.       category, which includes challenges 5 through 10,
The FDIC had $671 million in assets in      relates to more specific operational issues at the
liquidation in 34 Bank Insurance Fund       FDIC. Of note, the challenge of transitioning to a
                                            new financial environment was expanded to
and Savings Association Insurance
                                            include the management of other major projects
Fund receiverships.                         as well. Also, given progress made in the chal-
                                            lenge involving organizational leadership, that
                                            challenge focuses more now on managing
                                            human capital.




                                                               Management and Performance Challenges 9
       We identified the following challenges, and the      1. Adequacy of Corporate
       Corporation included them in its 2003 Annual
       Report:                                                 Governance in Insured
        1. Adequacy of Corporate Governance in
                                                               Depository Institutions
           Insured Depository Institutions                  Corporate governance is generally defined as the
                                                            fulfillment of the broad stewardship responsibili-
        2. Protection of Consumer Interests                 ties entrusted to the Board of Directors, Officers,
                                                            and external and internal auditors of a corpora-
        3. Management and Analysis of Risks to the          tion. A number of well-publicized announce-
           Insurance Funds                                  ments of business failures, including financial
                                                            institution failures, have raised questions about
        4. Effectiveness of Resolution and Receiver-        the credibility of accounting practices and over-
           ship Activities                                  sight in the United States. These recent events
                                                            have increased public concern regarding the ade-
        5. Management of Human Capital                      quacy of corporate governance and, in part,
                                                            prompted passage of the Sarbanes-Oxley Act of
        6. Management and Security of Information           2002. The public’s confidence in the nation’s
           Technology Resources                             financial system can be shaken by deficiencies in
                                                            the adequacy of corporate governance in insured
        7. Security of Critical Infrastructure              depository institutions. For example, the failure
                                                            of senior management, boards of directors, and
        8. Management of Major Projects                     auditors to effectively conduct their duties has
                                                            contributed to some recent financial institution
        9. Assessment of Corporate Performance              failures. In certain cases, board members and
                                                            senior management engaged in high-risk activi-
       10. Cost Containment and Procurement                 ties without proper risk management processes,
           Integrity                                        did not maintain adequate loan policies and pro-
                                                            cedures, and circumvented or disregarded vari-
       We also note that some issues envisioned in our      ous laws and banking regulations. In other cases,
       audit and evaluation work for fiscal year 2005       independent public accounting firms rendered
       relate to internal governance issues within the      clean opinions on the institutions’ financial
       Corporation, so that our first listed challenge—     statements when, in fact, the statements were
       adequacy of corporate governance in insured          materially misstated. To the extent that financial
       depository institutions—may be broadened in          reporting is not reliable, the regulatory processes
       the future to include, for example, the Corpora-     and FDIC mission achievement (that is, ensuring
       tion’s many efforts to assess and manage risk. We    the safety and soundness of the nation’s financial
       plan to continue and perhaps expand our work         system) can be adversely affected. For example,
       examining the Corporation’s processes for man-       essential research and analysis used to achieve the
       aging risk going forward to help ensure the Cor-     supervision and insurance missions of the Cor-
       poration’s success in accomplishing its goals.       poration can be complicated and potentially
                                                            compromised by poor quality financial reports
       We will continue to pursue audits, evaluations,      and audits. The insurance funds could be
       investigations, and other reviews that address the   affected by financial institution and other busi-
       management and performance challenges we             ness failures involving financial reporting prob-
       identified. Our work during the reporting period     lems. In the worst case, illegal and otherwise
       can be linked directly to these challenges and is    improper activity by management of financial
       presented as such in the sections that follow. We    institutions or their boards of directors can be
       will continue to work with corporate officials to    concealed, resulting in potential significant losses
       successfully address all challenges identified.      to the FDIC insurance funds.


10 SEMIANNUAL REPORT TO THE CONGRESS
The FDIC has initiated various measures               Also, pursuant to the Economic Growth and
designed to mitigate the risk posed by these con-     Regulatory Reduction Act of 1996, the FDIC,
cerns, such as reviewing the bank’s board             along with the other members of the FFIEC, is
activities and ethics policies and practices and      engaged in reviewing regulations in order to
reviewing auditor independence requirements.          identify outdated or otherwise unnecessary regu-
In addition, the FDIC reviews the financial dis-      latory requirements imposed on insured deposi-
closure and reporting obligations of publicly         tory institutions. The OIG supports prudent
traded state non-member institutions. The FDIC        opportunities to reduce regulatory burdens on
also reviews their compliance with Securities and     insured depository institutions along with con-
Exchange Commission regulations and the Fed-          sideration to the impact on the FDIC’s ability to
eral Financial Institutions Examination Council       adequately supervise the institutions.
(FFIEC)-approved and recommended policies to
help ensure accurate and reliable financial           OIG Audit and Investigative Work
reporting through an effective external auditing      Addresses Corporate Governance Issues
                                                      During the reporting period, we issued a report
program and on-site FDIC examination.
                                                      entitled Observations from FDIC OIG Material
                                                      Loss Reviews Conducted 1993 through 2003
The Corporation reports that in response to
                                                      (Report No. 04-004, January 22, 2004), a report
questions about the applicability of the
                                                      that attests to the significance of the issue of cor-
Sarbanes-Oxley Act to insured depository insti-       porate governance. In this report, we address
tutions that are not public companies, it issued      recurring and root causes of failure for the
comprehensive guidance in March 2003, describ-        10 FDIC-supervised institutions that caused
ing significant provisions of the Act and related     material losses to the Bank Insurance Fund dur-
rules of implementation adopted by the Securi-        ing the past 10 years. Estimated losses to the
ties and Exchange Commission. The guidance            Bank Insurance Fund from these 10 failures total
explained how adopting sound corporate gover-         over $584 million. We concluded that the major
nance practices outlined in the Act may benefit       causes of failure were inadequate corporate gov-
banking organizations, including those that are       ernance, poor risk management, and lack of risk
not public companies, and how several of the          diversification. Additional details of our findings
Act’s requirements mirror existing banking            are in the section of the semiannual report enti-
agency policy guidance related to corporate gov-      tled Management and Analysis of Risks to the
ernance. We have an active program of coverage        Insurance Funds.
related to corporate governance within the bank-
                                                      Our investigative work also addresses corporate
ing industry that will include a review of the        governance issues. In a number of cases, financial
implementation of the Sarbanes-Oxley Act and          institution fraud is a principal contributing fac-
related banking regulations this year.                tor to an institution’s failure. Unfortunately, the
                                                      principals of some of these institutions—that is,
Other corporate governance initiatives include        those most expected to ensure safe and sound
the FDIC’s issuing Financial Institution Letters,     corporate governance—are at times the parties
allowing bank directors to participate in regular     perpetrating the fraud. Our Office of Investiga-
meetings between examiners and bank officers,         tions plays a critical role in investigating such
maintaining a “Directors’ Corner” on the FDIC         activity. (See the Investigations section of this
Web site, and the expansion of the Corporation’s      report for specific examples of bank fraud cases
“Directors’ College” program. Also, the Chair-        involving corporate governance weaknesses.)
man has established leadership challenges for
FDIC managers that strive to promote external
confidence in the FDIC and the confidence of
                                                      2. Protection of
FDIC staff in addressing the strategic goals of the      Consumer Interests
Corporation. While the FDIC has taken signifi-
cant strides, corporate governance issues are a       The FDIC’s mission is to maintain public confi-
key concern.                                          dence in the Nation’s financial system. The avail-


                                                                          Management and Performance Challenges 11
       ability of deposit insurance to protect consumer     also continue efforts to maintain a Consumer
       interests is a very visible way in which the FDIC    Affairs program by investigating consumer com-
       accomplishes this mission. Additionally, as a reg-   plaints about FDIC-supervised institutions,
       ulator, the FDIC oversees a variety of statutory     answering consumer inquiries regarding con-
       and regulatory requirements aimed at protecting      sumer protection laws and banking practices,
       consumers from unfair and unscrupulous bank-         and providing data to assist the examination
       ing practices. The FDIC, together with other pri-    function.
       mary Federal regulators, has responsibility to
       help ensure bank compliance with statutory and       The continued expansion of electronic banking
       regulatory requirements related to consumer          presents a challenge for ensuring consumers are
       protection, civil rights, and community reinvest-    protected. The number of reported instances of
       ment. Some of the more prominent laws and reg-       identity theft has also ballooned in recent years.
       ulations related to this area include the Truth in   The Corporation will need to remain vigilant in
       Lending Act, Fair Credit Reporting Act, Real         conducting comprehensive, risk-based compli-
       Estate Settlement Procedures Act, Fair Housing       ance examinations, analyzing and responding
       Act, Home Mortgage Disclosure Act, Equal             appropriately to consumer complaints, and edu-
       Credit Opportunity Act, Community Reinvest-          cating individuals on money management topics,
       ment Act of 1977, and Gramm-Leach-Bliley Act.        including identity protection.

       The Corporation accomplishes its mission             The Corporation’s deposit insurance program
       related to fair lending and other consumer pro-      promotes public understanding of the federal
       tection laws and regulations by conducting com-      deposit insurance system and seeks to ensure that
       pliance examinations, taking enforcement             depositors and bankers have ready access to
       actions to address compliance violations, encour-    information about the rules for FDIC insurance
       aging public involvement in the community            coverage. Informing bankers and depositors
       reinvestment process, assisting financial institu-   about the rules for deposit insurance coverage
       tions with fair lending and consumer compliance      fosters public confidence in the banking system
       through education and guidance, and providing        by helping depositors to ensure that their funds
       assistance to various parties within and outside     are fully protected.
       of the FDIC.

       The FDIC’s examination and evaluation pro-           OIG Efforts to Address Consumer
       grams must assess how well the institutions          Protection Issues
       under its supervision manage compliance with         We did not issue reports in the area of Consumer
       consumer protection and fair lending laws and        Protection during the reporting period; however,
       regulations and meet the credit needs of their       we are planning an assignment to address the
       communities, including low- and moderate-            Corporation’s risk-focused compliance examina-
       income neighborhoods. The FDIC must also             tion program and will report the results of that
       work to issue regulations that implement federal     review in an upcoming semiannual report.
       consumer protection statutes both on its own
       initiative and together with the other federal       The OIG’s involvement with Consumer Protec-
       financial institution regulatory agencies.           tion matters includes our investigative cases
                                                            regarding misrepresentations of FDIC insurance
       The Corporation’s community affairs program          or affiliation to unsuspecting consumers.
       provides technical assistance to help banks meet     Recently our Office of Investigations’ Electronic
       their responsibilities under the Community           Crimes Team has been involved in investigating
       Reinvestment Act. One of the FDIC’s current          emerging e-mail “phishing” identity theft
       areas of emphasis is financial literacy, aimed       schemes that have used the FDIC’s name in an
       specifically at low- and moderate-income indi-       attempt to obtain personal data from unsuspect-
       viduals who may not have had previous banking        ing consumers who receive the emails. Our inves-
       relationships. The Corporation’s “Money Smart”       tigations have also uncovered multiple schemes
       initiative is a key outreach effort. The FDIC must   to defraud depositors by offering them mislead-

12 SEMIANNUAL REPORT TO THE CONGRESS
ing rates of returns on deposits. These abuses are
effected through the misuse of the FDIC’s name,
logo, abbreviation, or other indicators suggesting
that the products are fully insured deposits. Such
misrepresentations induce the targets of schemes
to invest on the strength of FDIC insurance while
misleading them as to the true nature of the
investments being offered. These depositors, who
are often elderly and dependent on insured
savings, have lost millions of dollars in such
schemes. In one case, $9.1 million worth of cer-
tificates of deposit were misrepresented to about
90 investors, most of whom were elderly. Abuses
of this nature not only harm innocent victims
but may also erode public confidence in federal       IG Gianni with Chairman Sue Kelly, House Financial Ser-
deposit insurance.                                    vices Committee, Subcommittee on Oversight and
                                                      Investigations after March 4, 2004 hearing.

Our experience with such cases prompted us on
March 4, 2003, to submit to the House Financial
Services Committee Chairman, Michael Oxley, a         ing to ensure the safety and soundness of the
legislative proposal to prevent misuse of the Cor-    nation’s financial system. The FDIC engages in
poration’s guarantee of insurance. This proposal      an ongoing process of proactively identifying
was incorporated in H.R. 1375: Financial Ser-         risks to the deposit insurance funds and adjust-
vices Regulatory Relief Act of 2003. On March         ing the risk-based deposit insurance premiums
24, 2004, H.R. 1375 was passed by the House of        charged to the institutions. One of the key tools
Representatives and referred to the U.S. Senate.      used by the FDIC is its safety and soundness
Section 615 of H.R. 1375, as we suggested, would      examination process which, when combined
provide the FDIC with enforcement tools to limit      with off-site monitoring and extensive industry
misrepresentations regarding FDIC deposit             risk analysis, generally provides an early warning
insurance coverage. We appreciate the Congres-        and corrective action process for emerging risks
sional support of this proposal.                      to the funds.

                                                      Recent trends and events continue to pose risks
3. Management and                                     to the funds. From January 1, 2002 to March 31,
                                                      2004, 17 insured financial institutions failed, and
   Analysis of Risks to the                           the potential exists for additional failures. While
   Insurance Funds                                    some failures may be attributable primarily or in
                                                      part to economic factors, as previously men-
The FDIC seeks to ensure that failed financial        tioned, bank mismanagement and apparent
institutions are and continue to be resolved          fraud have also been factors in the most recent
within the amounts available in the insurance         failures. The environment in which financial
funds and without recourse to the U.S. Treasury       institutions operate is evolving rapidly, particu-
for additional funds. Achieving this goal is a sig-   larly with the acceleration of interstate banking,
nificant challenge because the insurance funds        new banking products and complex asset struc-
generally average just over 1.25 percent of           tures, and electronic banking. The industry’s
insured deposits and the FDIC supervises only a       growing reliance on technologies, particularly
portion of the insured institutions. In fact, the     the Internet, has changed the risk profile of
preponderance of insured institution assets are       banking. Continuing threats to the U.S. financial
in institutions supervised by other federal regula-   infrastructure have made business continuity
tors. Therefore, the FDIC has established strate-     planning an essential ingredient to sound risk
gic relationships with the other regulators           management programs. The consolidations that
surrounding their shared responsibility of help-      may occur among banks, securities firms,

                                                                          Management and Performance Challenges 13
       insurance companies, and other financial serv-        small, low-risk institutions by well over the
       ices providers resulting from the Gramm-Leach-        20 percent target in qualifying institutions.
       Bliley Act pose additional risks to the FDIC’s
       insurance funds. Also, institutions face challenges   Relationship Manager Program: Still in its
       in managing interest rate risks in an environment     early, pilot stage, under this approach, commis-
       of historically low interest rates. The Corpora-      sioned examiners are assigned a portfolio of
       tion’s supervisory approach, including risk-          banks and are designated the “Relationship
       focused examinations, must operate to identify        Manager” or primary point of contact for these
       and mitigate these risks and their real or poten-     banks. As such, relationship managers will con-
       tial impact on financial institutions to preclude     duct comprehensive risk assessments of the banks
       adverse consequences to the insurance funds.          in their portfolios and in consultation with other
                                                             experts prepare a risk-focused supervisory plan.
       The FDIC employs a number of supervisory              Off-site and on-site activities will be conducted as
       approaches, several of which are described below,     needed throughout the examination cycle rather
       to identify and mitigate institution risk and faces   than the current “point-in-time” approach. The
       challenges in ensuring that each meets its            emphasis is on scheduling off-site and on-site
       intended purpose.                                     reviews during the examination cycle to better
                                                             leverage external sources of information.
       Supervisory Strategies for Large Banks: With
       regard to the risks associated with “megabanks”       Many other challenges also exist as the Corpora-
       or “large banks” (generally defined as institutions   tion seeks to protect and ensure the continued
       with assets of over $25 billion) for which the        strength of the insurance funds, as discussed
       FDIC is the insurer but is not the primary federal    below:
       regulator, in 2002, the FDIC initiated the Dedi-
       cated Examiner Program for the eight largest          Merging the Insurance Funds: Because of bank
       banks in the U.S. Senior examiners are dedicated      mergers and acquisitions, many institutions hold
       to those institutions to participate in targeted      deposits insured by both the Bank Insurance
       reviews and attend management meetings. Also,         Fund (BIF) and Savings Association Insurance
       case managers closely monitor such institutions       Fund (SAIF), obscuring the difference between
       through the Large Insured Depository Institu-         the funds. There is ongoing consideration of
       tions Program’s quarterly analysis and executive      merging the two insurance funds with the per-
       summaries. Additionally, case managers consis-        ceived outcome being that the merged fund
       tently remain in communication with their             would not only be stronger and better diversified
       counterparts at the other regulatory agencies,        but would also eliminate the concern about a
       frequently attending pre-examination meetings,        deposit insurance premium disparity between
       post-examination meetings, and exit board             the BIF and the SAIF. The prospect of different
       meetings.                                             premium rates for identical deposit insurance
                                                             coverage would be eliminated. Also, insured
       Maximum Efficiency, Risk-focused, Institution         institutions would no longer have to track their
       Targeted (MERIT) Examinations Program:                BIF and SAIF deposits separately, resulting in
       This program was introduced in March 2002 and         cost savings for the industry. Assessments in the
       is designed to improve the efficiency and effec-      merged fund would be based on the risk that
       tiveness of bank examinations by maximizing the       institutions pose to that fund. The Corporation
       use of risk-focused examination procedures in         has worked hard to bring about deposit insur-
       well-managed banks in sound financial condi-          ance reform, and the OIG supports the FDIC’s
       tion. As of December 31, 2003, over 4,600 of          continued work with the banking community
       approximately 5,300 FDIC-supervised institu-          and the Congress in the interest of eventual pas-
       tions were MERIT-eligible based on asset size         sage of reform legislation.
       (less than $1 billion) and composite rating (of
       1 or 2). DSC has reported that the MERIT pro-         The Designated Reserve Ratio: If the BIF ratio
       gram has reduced the average time spent con-          is below 1.25 percent, in accordance with the
       ducting safety and soundness examinations of          Federal Deposit Insurance Act, the FDIC Board

14 SEMIANNUAL REPORT TO THE CONGRESS
of Directors must charge premiums to banks that          higher minimum capital requirements consti-
are sufficient to restore the ratio to the statutorily   tutes a threat of increased insurance losses to the
mandated designated reserve ratio within 1 year.         funds.
As of March 31, 2002, the BIF reserve ratio was at
1.23 percent, the first time since 1995 that the         Risk Management: Internally, the Corporation
ratio had fallen below 1.25 percent. By June 30,         is currently operating under an internal control
2002, the BIF reserve ratio was at 1.25 percent,         policy that predates many developments toward
precisely at the minimum mandated level.                 proactive risk management. Since the Corpora-
According to the Chairman’s Letter to Stakehold-         tion issued its internal control policy in February
ers, the BIF ratio reported for 4th Quarter 2003         1998, the U.S. General Accounting Office (GAO)
was 1.32 percent. The Corporation must main-             has issued Standards for Internal Control in the
tain or exceed the designated reserve ratio, as          Federal Government (GAO/AIMD-00-21.3.1,
required by statute.                                     November 1999), which discusses five compo-
                                                         nents of internal control and provides an overall
Setting Deposit Insurance Premiums: Insur-               framework for identifying and addressing major
ance premiums are generally assessed based on            performance challenges and areas of greatest risk
the funding requirements of the insurance funds          for fraud, waste, abuse, and mismanagement.
independent of the financial risk to the funds for       Also, many organizations in the insurance indus-
institutions that pose safety and soundness con-         try and other organizations have begun using an
cerns. This approach has the impact of assessing         Enterprise Risk Management (ERM) approach to
premiums during economic downturns when                  managing not only financial risks, but all busi-
banks are failing and are likely not in the best         ness and compliance risks. ERM is a process that
position to afford the premiums. Also, numerous          incorporates the five components of internal
institutions have benefited from being able to           control and provides: (1) the mechanisms to help
sharply increase insured deposits without contri-        staff understand risk in the context of the entity’s
butions to the insurance funds commensurate              objectives and (2) assurance that the organiza-
with this increased risk. This situation can occur       tion will be able to execute its business strategy
because the designated reserve ratio is not              and achieve its objectives. The Committee of
breached, thereby triggering across-the-board            Sponsoring Organizations of the Treadway Com-
premiums. Current deposit insurance reform               mission recently issued a draft document that
proposals include provisions for risk-based pre-         explains essential concepts and the interrelation-
miums to be assessed on a more frequently                ship between ERM and internal control. (Note:
scheduled basis than would occur using the exist-        On April 2, 2004, the Corporation renamed its
ing approach. Risk-based premiums can provide            Office of Internal Control Management to the
the ability to better match premiums charged to          Office of Enterprise Risk Management to stress a
institutions with related risk to the insurance          more proactive and enterprise-wide approach to
funds.                                                   internal risk management.)

Adoption of the Proposed Basel Committee II
Capital Accord: Adoption of the accord poses a           OIG Report Examines Causes and Stages of
potential additional threat to the insurance funds       Bank Failures
due to the prospect of lower minimum capital             As mentioned previously, our analysis of material
requirements for large institutions. The initial         loss reviews conducted during 1993–2003 for 10
Basel Capital Accord only took credit risks into         failed banks disclosed that the major causes of
account; Basel II will require that banks evaluate       failure were inadequate corporate governance,
and measure other forms of risk, including oper-         poor risk management, and lack of risk diversifi-
ational risk. Banks will have to make capital pro-       cation. Bank management—that is, the Board of
visions to effectively act as a contingency fund, to     Directors and Executive officers—took risks that
cover the direct and indirect losses that emergent       were not mitigated by systems to adequately
operational risks could cause. The failure of at-        identify, measure, monitor, and most impor-
risk institutions to fully adhere to this proposed       tantly, control the risks. As a result, bank man-
contingency funding mechanism in place of                agement did not adequately fulfill its

                                                                            Management and Performance Challenges 15
       responsibility to ensure that the banks operated       ■   Failed banks often exhibited warning signs
       in a safe and sound manner. Although economic              when they appeared financially strong.
       conditions may have contributed to bank failures
       and the resulting material losses, the economy         ■   Financial condition was no guarantee of
       was not the sole cause of failure. In fact, the            future performance.
       financial condition of the majority of the banks
       became dependent on the economy as a result of         ■   Failed banks frequently assumed more risk
       bank management decisions.                                 than bank management was capable of
                                                                  handling.
       Our report points out that the failed banks typi-
       cally went through four stages:                        ■   An inattentive or passive board of directors
                                                                  was a precursor to problems.
       1. Strategy—the banks typically underwent a
          change in philosophy and developed aggres-          ■   Banks reached a point at which problems
          sive business plans usually in a high-risk lend-        became intractable and supervisory actions
          ing niche. Characteristics of a bank in this            were of limited use.
          stage included emergence of a dominant per-
          son, lack of expertise in the niche area, and       The observations discussed in this report under-
          high-risk lending with liberal underwriting         score one of the more difficult challenges facing
          and weak internal controls.                         bank regulators today—limiting risk assumed by
                                                              banks when their profits and capital ratios make
       2. Growth—the banks appeared financially               them appear financially strong. A critical aspect
          strong due to rapid growth in their niche           of limiting risk is early corrective action by bank
          area. High levels of fee income were reported,      regulators in response to bank examinations that
          but bank portfolios were not sufficiently aged      identify potential problems and effects on a
          to show losses resulting from poor lending          bank’s condition. For example, if a bank is expe-
          decisions and weak credit administration.           riencing rapid growth, the effects of poor under-
          Violations of laws and regulations and insider      writing in commercial real estate loans may not
          abuse occurred, and examiners’ concerns             appear on the bank’s financial statements until
          were not fully addressed. Poor risk manage-         several months or even years after the loans are
          ment and inadequate diversification were            made. Left uncorrected, poor underwriting
          evident.                                            could result in the serious and intractable prob-
                                                              lems experienced by the banks we reviewed.
       3. Deterioration—the banks’ overall financial
          condition declined. Characteristics of a bank       The FDIC has taken a number of steps to address
          in this stage included resistance to supervisory    these challenges through risk-focused examina-
          concerns, overvaluation of assets, a plateau or     tion programs and risk-based capital require-
          decline in earnings, inadequate allowance for       ments. Nevertheless, we recognize that bank
          loan and lease losses, impaired capital, signifi-   failures may never be eliminated and, in a free
          cant concentrations of credit, and loan prob-       economy, might even be necessary to cull the
          lems that were exacerbated when the economy         industry of marginal performers and excess
          declined.                                           capacity.

       4. Failing—massive loan losses occurred,
          allowance for loan and lease losses was             The Corporation’s Follow-up of Bank
          severely deficient, significant capital depletion   Secrecy Act Violations
          occurred, enforcement actions were issued by        The Bank Secrecy Act of 1970 (BSA) requires
          the FDIC, and key management officials              financial institutions to maintain appropriate
          departed. A massive capital infusion was            records and to file certain reports that are used in
          needed for the bank to survive.                     criminal, tax, or regulatory investigations or pro-
                                                              ceedings. The Congress enacted the BSA to pre-
       We also made the following observations:               vent banks and other financial service providers

16 SEMIANNUAL REPORT TO THE CONGRESS
from being used as intermediaries for or to hide     and the FDIC’s anti-money laundering require-
the transfer or deposit of money derived from        ments. In responding to our observations, DSC
criminal activity. A report that we issued this      officials explained that they focused their efforts
reporting period addressed whether DSC ade-          on BSA compliance based on the division’s
quately follows up on reported BSA violations to     assessment of the risk of money laundering
ensure that institutions take appropriate correc-    activity for FDIC-supervised institutions.
tive action. We reviewed supervisory actions that
DSC has taken to ensure BSA compliance,              We made three recommendations to strengthen
including efforts to follow up with bank manage-     DSC’s monitoring and follow-up efforts for BSA
ment after examinations and the use of regula-       violations, update guidance for referring institu-
tory actions to prompt management action. We         tion violations to the Treasury Department, and
concluded that the FDIC needs to strengthen its      provide alternative coverage when state examina-
follow-up process for BSA violations and has ini-    tions do not cover BSA compliance. DSC man-
tiatives underway to reassess and update its BSA     agement concurred with the recommendations
policies and procedures.                             and plans to take corrective actions.

From the sample of 41 institutions we selected to    DSC’s response provided detailed analyses and
review, 27 had repeat violations. Of those           comments on several issues that relate to DSC’s
27 institutions, 17 (63 percent) were not subject    overall BSA program. Because our audit focused
to regulatory action for their repeat violations,    on supervisory actions taken in response to BSA
although other supervisory efforts may have          violations, not DSC’s overall BSA program, we
been in progress. For the 41 banks in our sample,    did not respond to these comments in our final
we reviewed 82 reports that cited apparent and       report. However, in reviewing DSC’s other com-
often multiple BSA violations. For 25 (30 per-       ments that relate generally to our audit and
cent) of those 82 reports, DSC waited until the      specifically to our audit results and scope, there
next examination to follow up on some or all of      were several issues that warranted further discus-
the BSA violations. In addition, we noted that       sion and clarification which are addressed in
not all BSA deficiencies described in DSC’s          detail in our final report. (Report No. 04-017,
examination reports were cited in the violations     March 31, 2004.)
section of the reports.
                                                     Results of Other Examination
We also observed that DSC offices took various       Process-Related Reviews
approaches to referring bank violations to the       DSC’s Supervisory Appeals Process: We
Treasury Department and exercised wide discre-       reported on the FDIC’s process to review safety
tion in deciding whether and when to follow up       and soundness ratings questioned and appealed
on the violations or to take regulatory action. In   by FDIC-supervised institutions. We concluded
some cases, more than 1 to 5 years passed before     that with respect to an allegation we had
either bank management took corrective action        received, the FDIC complied with procedures
and the action was effective in preventing repeat    related to upgrading preliminary component
violations or DSC applied regulatory actions to      examination ratings and that the Regional
address continuing violations. Additionally,         Director acted within delegated authority when
although the FDIC typically alternates examina-      changing the institution’s preliminary compo-
tions with state banking authorities, state exami-   nent rating. However, we noted that certain
nations usually did not cover BSA compliance. As     areas of the appeals process needed improve-
a result, 2 to 3 years could elapse until the next   ment and recommended actions to enhance
FDIC examination without any follow-up on            guidance on necessary documentation for
BSA violations.                                      appeals, improve communication with state
                                                     regulatory authorities, and clarify that the
As a result of these conditions, the FDIC’s super-   appeal and review processes should be limited
visory actions have not ensured to the greatest      to the facts and conditions prior to or at the
extent possible that institutions are in compli-     time the material supervisory determination is
ance with both the Department of the Treasury’s      made. DSC generally concurred with the

                                                                        Management and Performance Challenges 17
           report’s findings and agreed to take actions
           regarding the recommendations. (Report No.
           04-015, March 29, 2004.)

           Reliance on State Examinations: The Federal
           Deposit Insurance Act requires all FDIC-insured
           institutions to undergo on-site examinations by a
           federal regulator every 12 or 18 months, depend-
           ing on asset size and bank performance. In accor-
           dance with the Act, the FDIC may alternate bank
           examinations with state banking regulators if the
           FDIC determines that the state examination is an
           acceptable substitute. We issued a report on the
           process the FDIC uses to rely on safety and
           soundness examinations performed by state            Assistant IG for Investigations Sam Holland, DRR Deputy
           banking departments. Overall, we determined          Director for Field Operations Stan Ivie, and Office of
           that the FDIC’s process is adequate for relying on   Audits’ Craig Russell at OIG’s Dallas Open House event
                                                                for the 25th anniversary of the IG Act.
           these examinations. However, we identified sev-
           eral opportunities for improvement and recom-
           mended that the Director, DSC, in cooperation        marketing of failing FDIC-insured institutions
           with state banking departments, amend working        and providing prompt, responsive, and efficient
           agreements, based on a model agreement, to           resolution of failed financial institutions. These
           address, among other things: current examina-        activities maintain confidence and stability in
           tion frequency requirements, workpaper sharing,      our financial system. Notably, since the FDIC’s
           coordinating examination programs and super-         inception over 70 years ago, no depositor has
           visory actions, and encouraging the mutual sup-      ever experienced a loss of insured deposits at an
           port of efforts to maintain quality control          FDIC-insured institution due to a failure.
           programs. DSC generally concurred with the
           report’s findings and agreed to take responsive      During 2003 and the first quarter of 2004, the
           action. (Report No. 04-013, March 26, 2004.)         FDIC resolved six financial institution failures.
                                                                These failed institutions had a total of $1.2 billion
                                                                in assets and $1 billion in deposits. Within 1 busi-
           4. Effectiveness of Resolution                       ness day after each failure, the FDIC had issued
              and Receivership Activities                       payout checks to insured depositors, or worked
                                                                with open institutions to ensure that depositors
           One of the FDIC’s corporate responsibilities is      had access to their insured funds. In addition, the
           planning and efficiently handling the franchise      FDIC continues to manage over $671 million in
                                                                assets in liquidation in 34 BIF and SAIF receiver-
                                                                ships. The FDIC initiated a number of projects in
                                                                2003 to better manage and leverage its resources
                                                                to meet potential challenges in the resolution of
                                                                future financial institution failures. These projects
                                                                include the Corporate Readiness Plan, the Asset
                                                                Servicing Technology Enhancement Project, a les-
                                                                sons learned from bank failures symposium, and
                                                                a Web site to provide instant access to the most
                                                                current information available to institutions via
                                                                the Internet.

                                                                The FDIC has outlined primary goals for three
DRR’s Jim Wigand with Office of Audits’ Steve Beard and Bruce
                                                                business lines that are relevant to the three major
Gimbel.                                                         phases of its work: Pre-Closing, Closing, and

18 SEMIANNUAL REPORT TO THE CONGRESS
Post-Closing of failing or failed institutions. Each   data, and conducting training to provide greater
is accompanied by significant challenges:              assurance that receiverships are properly billed.
                                                       (Report No. 04-002, January 15, 2004.)
Deposit Insurance. The FDIC must provide cus-
tomers of failed financial institutions with timely    Limited Partnership Review: We conducted an
access to their insured funds and financial serv-      audit of a partnership in which the FDIC is a
ices. A significant challenge in this area is to       limited partner. The Division of Resolutions
ensure that FDIC deposit insurance claims and          and Receiverships (DRR), which is responsible
payment processes are prepared to handle large         for the oversight of the partnership, requested
institution failures.                                  that we conduct the audit because of concerns
                                                       DRR had relating to payments of development
Resolutions. As the FDIC seeks to resolve failed       and accounting fees to an affiliate, questionable
institutions in the least costly manner, its chal-     charitable donations made by the General Part-
lenges include ensuring the efficiency of contin-      ner, and other potentially improper charges.
gency planning for institution failures and            Our work showed that the General Partner
effective internal FDIC communication and              charged the Partnership $232,867 for expenses
coordination as well as communication with the         that were either unallowable or unsupported,
other primary federal regulators. Such steps help      and we recommended that the Director, DRR,
ensure timely access to records and optimal reso-      recover the questionable expenses on behalf of
lution strategies.                                     the partnership. We also determined that the
                                                       General Partner sold an asset to a charitable
Receivership Management. The FDIC’s goal is to         organization for $425,000 less than its reported
manage receiverships to maximize net return            fair market value and in doing so, realized a tax
toward an orderly and timely termination and           benefit. This transaction was not in the best
provide customers of failed institutions and the       interest of the FDIC, and we recommended that
public with timely and responsive information.         the Corporation evaluate the transaction fur-
Related challenges include ensuring the efficiency     ther and pursue recovery of all or part of this
of the receivership termination process, effective     amount on behalf of the Partnership. The Cor-
claims processing, continual assessment of recov-      poration’s response to our recommendations is
ery strategies, sound investigative activities, col-   expected in mid-May 2004. (Report No. 04-012,
lection of restitution orders, and accurate            March 16, 2004.)
charging of receiverships for services performed
under the Receivership Management Program.
                                                       Cases Involving Concealment of Assets
                                                       As referenced earlier, the OIG’s Office of Investi-
Receivership Management Reports                        gations coordinates closely with the FDIC’s DRR
The two following reports that we issued during        and with the Legal Division regarding ongoing
the reporting period addressed receivership            investigations involving fraud at failed institu-
management issues:                                     tions, fraud by FDIC debtors, and fraud in the
                                                       sale or management of FDIC assets. In particular,
FDIC’s 2003 Service Line Rates: The FDIC uses          investigators coordinate closely with the Corpora-
a Service Costing System to ensure that FDIC-          tion to address issues arising in connection with
established receiverships are properly billed for      the prosecution of individuals who have illegally
their fair share of indirect expenses. In the          concealed assets in an attempt to avoid payment
10-month period ended October 31, 2003, the            of criminal restitution to the FDIC. As of
FDIC billed 120 receiverships over $33 million.        March 31, 2004, the FDIC was owed more than
We found that during 2003, the FDIC process for        $1.17 billion in criminal restitution. In most
billing receiverships had improved. However, we        cases, the convicts subject to restitution orders do
identified opportunities to enhance the FDIC’s         not have the means to pay. We focus our investi-
ability to document that established rates were        gations on those individuals who do have the
fair and reasonable. The Corporation will be           means to pay but hide their assets from and/or lie
improving analyses, enhancing reports and cost         about their ability to pay. Details of some such

                                                                          Management and Performance Challenges 19
       investigative cases are contained in the Investiga-   gram such as solicitations of interest, reassign-
       tions section of this semiannual report.              ments, retraining, and outplacement assistance.
                                                             It is also in the process of revamping its compen-
                                                             sation program to place greater emphasis on
       5. Management of                                      performance-based incentives. Other challenges
                                                             for the Corporation include working to fill key
          Human Capital                                      vacancies in a timely manner, engaging in careful
                                                             succession planning, and continuing to conserve
       Human capital issues pose significant elements
                                                             and replenish the institutional knowledge and
       of risk that interweave all the management and
                                                             expertise that has guided the organization over
       performance challenges facing the FDIC. The
                                                             the past years. A need for additional outsourcing
       FDIC has been in a downsizing mode for the
                                                             may arise, and hiring and retaining new talent
       past 10 years as the workload from the banking
                                                             will be important. Hiring and retention policies
       and thrift crises of the late l980s and 1990s has
                                                             that are fair and inclusive must remain a signifi-
       been accomplished. A number of division merg-
                                                             cant component of the corporate diversity plan.
       ers and reorganizations took place, and the Cor-
                                                             Designing, implementing, and maintaining effec-
       poration concluded its major buyout/retirement
                                                             tive human capital strategies are critical priorities
       incentive programs. In total, over the past 11+
                                                             and must be the focus of centralized, sustained
       years, the workforce (combined from the FDIC
                                                             corporate attention. The Corporation’s Human
       and the Resolution Trust Corporation) has
                                                             Resources Committee and negotiations with the
       decreased from approximately 23,000 in 1992 to
                                                             National Treasury Employees Union play a key
       approximately 5,300 currently. The Corporation
                                                             role in such efforts.
       has also predicted that about 20 percent of FDIC
       employees will be eligible to retire within the
       next 5 years.                                         Of note, the FDIC has undertaken a significant
                                                             effort to address skill levels and maintain the
       As the FDIC continues to move past an era that        preservation of institutional knowledge by creat-
       has been so characterized by continual down-          ing the FDIC Corporate University. The Corpo-
       sizing, the demands placed on the Corporation         rate University is comprised of the following five
       by a rapidly changing external environment            Schools: (1) Supervision and Consumer Pro-
       require a dynamic and strategic approach to           tection, (2) Resolutions and Receiverships,
       managing the Corporation’s human capital. The         (3) Insurance, (4) Leadership Development, and
       FDIC must remain flexible in managing                 (5) Corporate Operations. Also the Division of
       changes in the Corporation’s workload and             Administration’s Human Resources Branch con-
       business processes that may have an impact on         tains a Center for Career and Educational Ser-
       the size and skill composition of its workforce,      vices that strives to prepare employees to more
       whether these changes are planned or unantici-        effectively manage their careers by offering devel-
       pated. It is incumbent on all executives and          opmental programs, career counseling, forums,
       managers in the FDIC to continually assess the        workshops, and seminars.
       goals and objectives, workload, and staffing of
       their organizations and to take appropriate
       steps to ensure that they have a workforce with       The Division of Information Resources Manage-
       the right experience and skills to fulfill their      ment (DIRM) initiated a priority project called
       mission. It is imperative that the Corporation’s      the Comprehensive Information Technology
       business planning and human resources                 Program Review. One aspect of this effort is an
       processes incorporate effective means to man-         assessment of human capital needs and a plan to
       age such changes in the size and skill composi-       identify and address any shortfalls in staff
       tion of the workforce, in order to promote            resources or skills mix for the information tech-
       efficiency and productivity and diminish the          nology security program. Until an assessment is
       possibility of a future reduction-in-force.           performed, and a human capital plan developed
                                                             and tracked, the FDIC is at risk of not having the
       The Corporation continues to carry out other          appropriate staffing resources to manage the IT
       features of its comprehensive downsizing pro-         security program.

20 SEMIANNUAL REPORT TO THE CONGRESS
FDIC OIG sponsors governmentwide FISMA Symposium to address issues of common interest. Shown presenting are
Rus Rau and OMB’s Kamela White.



OIG Reviews the FDIC’s Strategic Alignment              institutions, and managing receiverships, the
of Human Capital                                        employees rely on information and correspon-
During the reporting period, we completed an            ding technology as an essential resource. Infor-
evaluation in which we concluded that the Cor-          mation and analysis on banking, financial
poration’s human capital framework addresses            services, and the economy form the basis for the
the underlying human capital concepts that the          development of public policies and promote
Office of Personnel Management, Office of Man-          public understanding and confidence in the
agement and Budget, and the U.S. General                nation’s financial system. IT is a critical resource
Accounting Office consider vital to successful          that must be safeguarded.
human capital management. We did, however,
recommend and the FDIC agreed to strengthen             Accomplishing IT goals efficiently and effectively
its human capital program by institutionalizing         requires sound IT planning and investment con-
the Human Resources Committee, an element of            trol processes. The Corporation’s 2004 IT budget
its human capital framework, and developing a           is approximately $219.3 million. The Corpora-
human capital blueprint. Taking these actions           tion must constantly evaluate technological
will sustain the FDIC’s long-term commitment            advances to ensure that its operations continue
and focus on strategic human capital manage-            to be efficient and cost-effective and that it is
ment and will maintain transparency in the              properly positioned to carry out its mission.
development, implementation, and monitoring             While doing so, the Corporation must continue
of human capital initiatives. (EVAL Report              to respond to the impact of laws and regulations
No. 04-005, January 23, 2004.) We have a series         on its operations. Management of IT resources
of reviews planned to address the various com-          and IT security have been the focus of several
ponents of the Corporation’s human capital pro-
gram, and we have an ongoing evaluation related
to strategic workforce planning.


6. Management and
   Security of Information
   Technology Resources
Information technology (IT) continues to play
an increasingly greater role in every aspect of the
FDIC mission. As corporate employees carry out
the FDIC’s principal business lines of insuring         OIG’s Rus Rau receives Federal 100 award for his work on FDIC IT
deposits, examining and supervising financial           issues and governmental FISMA activities.


                                                                             Management and Performance Challenges 21
       laws, such as the Paperwork Reduction Act, the         underway to more closely align its existing guid-
       Government Information Security Reform Act,            ance and methodology for determining the sen-
       and the Federal Information Security Manage-           sitivity of data and information systems with
       ment Act of 2002 (FISMA). Under FISMA, each            applicable federal standards. (EVAL Report No.
       agency is required to report on the adequacy and       04-011, February 27, 2004.)
       effectiveness of information security policies,
       procedures, and practices and compliance with
                                                              Two Reviews Recommend Strengthening IT
       information security requirements.
                                                              Security Controls
                                                              The OIG engaged IBM Business Consulting Ser-
       Our work required under FISMA has shown that
                                                              vices (IBM), an independent professional serv-
       the Corporation has worked hard to implement
                                                              ices firm, in support of OIG efforts to satisfy
       many sound information system controls to help
                                                              reporting requirements related to FISMA. IBM
       ensure adequate security. However, daunting
                                                              conducted the following two reviews in the
       challenges remain due to the ever-increasing
                                                              information security area:
       threat posed by hackers and other illegal activity.
       We have urged the FDIC to stay the course in
                                                              Intrusion Detection and Incident Response:
       developing an enterprise-wide IT architecture
                                                              The scope of the review was specifically designed
       that maps the current and “to be” states of busi-
                                                              to focus on (1) intrusion identification and
       ness processes and the supporting information
                                                              detection, (2) incident tracking and external
       systems and data architecture. Additionally, we
                                                              reporting, and (3) incident investigation. IBM
       have emphasized completing system certifica-
                                                              concluded that the FDIC had made improve-
       tion and accreditation processes to test the secu-
                                                              ments in the incident response area, but addi-
       rity of deployed IT assets. We have completed
                                                              tional work was needed to strengthen the FDIC’s
       and ongoing assignments covering the IT capital
                                                              controls for identifying and monitoring security
       planning and investment control process to
                                                              incidents. IBM made multiple recommendations
       assist the Corporation in this area. Finally, we
                                                              to improve the intrusion detection and incident
       are pleased that the Corporation has appointed a
                                                              response capability at the FDIC. The FDIC’s
       permanent Chief Information Officer to guide
                                                              response adequately addressed all the conditions
       its IT efforts, particularly from a strategic stand-
                                                              discussed in the report. (Report No. 04-009, Feb-
       point, but many key IT security positions
                                                              ruary 13, 2004.)
       remain to be filled, and the Corporation’s DIRM
       is in the midst of an internal transformation ini-
                                                              FDIC’s Personnel Security Program: IBM
       tiative aimed at improving the skill mix of its IT
                                                              concluded that the FDIC’s Division of Adminis-
       personnel and business processes. Our 2004
                                                              tration has made improvements in the Corpo-
       FISMA work will address these issues.
                                                              ration’s personnel security program, but
                                                              additional work was needed to strengthen con-
       The Corporation’s Approach to Data
                                                              trols over data used to manage the program. IBM
       Sensitivity for Legacy Applications
                                                              made multiple recommendations to improve the
       We initiated an evaluation in response to FDIC
                                                              accuracy of the data used to manage the FDIC’s
       program office management’s concerns over
                                                              personnel security program. The Division of
       whether a plan designed to determine the sensi-
                                                              Administration’s response adequately addressed
       tivity of data within selected FDIC legacy appli-
                                                              all of the conditions discussed in the report.
       cations was appropriate. Concerns had been
                                                              (Report No. 04-016, March 30, 2004.)
       raised given the significant costs for the plan’s
       implementation, continuing costs to maintain
       data classifications, and potential disruption to
       program operations. Generally, our report con-
                                                              7. Security of Critical
       cluded that the FDIC’s approach to identifying            Infrastructure
       and protecting sensitive data resident in legacy
       applications was consistent with applicable fed-       The adequate security of our nation’s critical
       eral standards for categorizing information and        infrastructures has been at the forefront of the
       information systems. Further, DIRM has actions         federal government’s agenda for many years.

22 SEMIANNUAL REPORT TO THE CONGRESS
Specifically, the President’s Commission on Crit-      for federal agencies to identify and prioritize the
ical Infrastructure Protection (established in July    nation’s critical infrastructure and key resources
1996) was tasked to formulate a comprehensive          and to protect them from terrorist attacks. This
national strategy for protecting the nation’s criti-   Directive supersedes PDD 63. Included in this
cal infrastructure from physical and “cyber”           directive is a requirement for agencies to submit
threats. Included among the limited number of          for OMB’s approval their plans for protecting
systems whose incapacity or destruction were           their critical physical and cyber infrastructure
deemed to have a debilitating impact on the            and to submit progress reports to OMB. As a
defense or economic security of the nation was         government Corporation, the FDIC falls under
the banking and finance system. With the               this directive.
increased consolidation and connectivity of the
banking industry in the years since 1996, and          To effectively protect critical infrastructure, the
with the new awareness of the nation’s vulnera-        FDIC’s challenge is to implement measures to
bilities to terrorist attacks since September 11,      mitigate risks, plan for and manage emergencies
2001, the security of the critical infrastructure in   through effective contingency and continuity
the banking industry is even more important.           planning, coordinate protective measures with
                                                       other agencies, determine resource and organi-
On May 22, 1998, Presidential Decision Directive       zation requirements, and engage in education
(PDD) 63 Title 5 was signed. The directive called      and awareness activities. The FDIC will need to
for a national effort to ensure the security of the    continue to work with the Department of Home-
nation’s critical infrastructures. PDD 63 defined      land Security and the Finance and Banking
the critical infrastructure as the “physical and       Information Infrastructure Committee, created
cyber-based systems essential to the minimum           by Executive Order 23231 and chaired by the
operations of the economy and government.”             Department of the Treasury, on efforts to
The President declared that securing our critical      improve security of the critical infrastructure of
infrastructure is essential to our economic and        the nation’s financial system. To address this risk,
national security and issued two Executive             the FDIC is sponsoring 24 outreach conferences
Orders (EO 13228, The Office of Homeland               for the Financial and Banking Information Infra-
Security and the Homeland Security Council,            structure Committee and Financial Services Sec-
and EO 23231, Critical Infrastructure Protection       tor Coordinating Council through 2005, which
in the Information Age) to improve the federal         will address protecting the financial sector. The
government’s critical infrastructure protection        Corporation will also need to be attentive to the
program in the context of PDD 63.                      new requirements of HSPD 7.

The intent of PDD 63 was to ensure that the fed-
eral government maintained the capability to           Evaluation of FDIC’s Unix Systems Security
deliver services essential to the nation’s security    A third review conducted by IBM on the OIG’s
and economy and to the health and safety of its        behalf addressed issues associated with the Cor-
citizens in the event of a cyber- or physical-based    poration’s Unix operating system. The scope of
disruption. Much of the nation’s critical infra-       the evaluation was specifically designed to focus
structure historically has been physically and         on Unix security policies, standards, and proce-
logically separate systems that had little interde-    dures; configuration management; and technical
pendence. However, as a result of technology, the      controls as part of the assessment of the Network
infrastructure has increasingly become auto-           and Mainframe Security area. IBM found a num-
mated and interconnected. These same advances          ber of good security practices being applied in
have created new vulnerabilities to equipment          the Unix system environment but identified
failures, human error, natural disasters, terror-      improvements that could be made. Most signifi-
ism, and cyber-attacks.                                cantly, IBM recommended that administration of
                                                       the Unix servers be centralized to improve the
On December 17, 2003, the President issued             consistency and uniformity of security controls
Homeland Security Presidential Directive               and practices applied to the servers. The Corpo-
(HSPD) 7, which established a national policy          ration has agreed to pursue corrective actions to

                                                                          Management and Performance Challenges 23
       address all of the report’s recommendations.          eral Reserve Board, and the Office of the Comp-
       (Report No. 04-008, February 13, 2004.)               troller of the Currency to improve the processes
                                                             and systems used to collect, validate, store, and
                                                             distribute Call Report information. The project
       8. Management of Major                                resulted in a CDR approach to managing bank
          Projects                                           Call Report Information. The agencies developed
                                                             a consensus vision for a new Call Report process-
       Project management is the defining, planning,         ing business model that incorporates open data
       scheduling, and controlling of the tasks that         standards, uses a common reporting language,
       must be completed to reach a goal and the allo-       and offers tools to enable banks to submit better
       cation of the resources to perform those tasks.       reports.
       The FDIC has engaged in several multi-million
       dollar projects, such as the New Financial Envi-      In March 2002, the Board of Directors approved
       ronment (NFE), Central Data Repository (CDR),         construction of a new nine-story building at the
       and Virginia Square Phase II Construction.            FDIC’s Virginia Square in Northern Virginia.
       Without effective project management, the FDIC        Known as Virginia Square Phase II, the building
       runs the risk that corporate requirements and         will house FDIC staffers (about 1,100) for the
       user needs may not be met in a timely, cost-effec-    most part now working in leased space. The
       tive manner. We have done several reviews of          expansion will cost approximately $111 million.
       these projects and identified the need for            The building is expected to be finished in 2006.
       improved defining, planning, scheduling, and          Completing construction activities and moving
       controlling of resources and tasks to reach goals     staff from leased to owned space within the
       and milestones. The Corporation has included a        planned time and cost budgets presents consid-
       project management initiative in its 2004 per-        erable challenges for FDIC management.
       formance goals and established a program
       management office to address the risks and chal-      The Corporation must ensure that employees
       lenges that these kinds of projects pose.             from all divisions and offices properly safeguard
                                                             the Bank Insurance and Savings Association
       In September 2002, the FDIC executed a multi-
                                                             Insurance Funds. It is critically important that
       year contract to replace its core financial systems
                                                             budgets for the major projects discussed above
       and applications with a commercial-off-the-shelf
                                                             and all others be established and closely moni-
       software package. NFE is a major corporate ini-
                                                             tored to prevent significant cost overruns.
       tiative to enhance the FDIC’s ability to meet cur-
       rent and future financial management and
       information needs. At the time the Board case
       was approved, the FDIC estimated the total life-
                                                             XBAT Contracting and Project Management
       cycle cost of NFE, including FDIC staff time, to      One of our reports during the reporting period
       be approximately $62.5 million over 8 years. NFE      addressed an aspect of the Call Report Processing
       offers the FDIC significant benefits and presents     Modernization project, and the CDR, in particu-
       significant challenges. These challenges will test    lar. FDIC executives expressed concerns that the
       the Corporation’s ability to (1) maintain unqual-     Extensible Business Reporting Language Busi-
       ified opinions on the FDIC’s annual financial         ness Analyst Tool (XBAT) delivered to the CDR
       statements through the system implementation          contractor was not fully functional and asked us
       and associated business process reengineering;        to identify lessons learned in contract adminis-
       (2) manage contractor resources, schedules, and       tration and project management that could be
       costs; and (3) coordinate with planned and            applied to the larger CDR effort. The OIG con-
       ongoing system development projects related to        ducted a joint review with the Office of Enter-
       NFE. We have reported on several NFE matters          prise Risk Management to address these
       in the past and are currently monitoring the Cor-     concerns.
       poration’s ongoing NFE efforts.
                                                             We concluded that the FDIC received some value
       The Call Report Processing Modernization proj-        from the XBAT procurement. However, the
       ect is a collaborative effort by the FDIC, the Fed-   development of the XBAT software was not suc-

24 SEMIANNUAL REPORT TO THE CONGRESS
                                                       nings are not the measure of success. What mat-
                                                       ters in the end is completion: performance and
                                                       results. To that end, the Government Performance
                                                       and Results Act (Results Act) of 1993 was enacted.
                                                       This Act requires most federal agencies, including
                                                       the FDIC, to prepare a strategic plan that broadly
                                                       defines each agency’s mission, vision, and strategic
                                                       goals and objectives; an annual performance plan
                                                       that translates the vision and goals of the strategic
                                                       plan into measurable annual goals; and an annual
                                                       performance report that compares actual results
                                                       against planned goals.

The OIG is monitoring project management of the con-
                                                       The current administration has raised the bar
struction of the Corporation’s new Virginia Square     further in this area. Specifically, OMB is using an
facility.                                              Executive Branch Management Scorecard to
                                                       track how well departments and agencies are exe-
                                                       cuting the management initiatives, and where
cessful. The FDIC determined that XBAT lacked
                                                       they stand at a given point in time against the
the functionality to successfully manage Call
                                                       overall standards for success. OMB has also
Report taxonomies. (Taxonomies contain com-
                                                       introduced the Program Assessment Rating Tool
mon terms, definitions, and relationships for Call
                                                       (PART) to evaluate program performance, deter-
Report data items.) The FDIC did not always fol-
                                                       mine the causes for strong or weak performance,
low established acquisition procedures, prudent
                                                       and take action to remedy deficiencies and
project management practices, or System Devel-
                                                       achieve better results.
opment Life Cycle guidance. As a result, the
FDIC paid for software that did not meet all cor-
                                                       The Corporation’s strategic plan and annual per-
porate needs or expectations. Moreover, the con-
                                                       formance plan lay out the agency’s mission and
ditions exposed the FDIC to risks for potential
                                                       vision and articulate goals and objectives for the
delays in the CDR project and to reputation risk
                                                       FDIC’s three major program areas: Insurance,
in the eyes of the CDR contractor, other banking
                                                       Supervision, and Receivership Management. The
agencies, and FDIC-insured institutions. The
                                                       plans focus on four strategic goals that define
FDIC issued a change order to the CDR contract
                                                       desired outcomes identified for each program
for the development of an alternative tool that
                                                       area: (1) Insured Depositors Are Protected from
will replace XBAT. According to the CDR con-
                                                       Loss Without Recourse to Taxpayer Funding,
tractor, development of the alternative tool
                                                       (2) FDIC-Supervised Institutions Are Safe and
should not impact the overall milestones for
                                                       Sound, (3) Consumers’ Rights Are Protected and
implementing the CDR.
                                                       FDIC-Supervised Institutions Invest in Their
                                                       Communities, and (4) Recovery to Creditors of
We did not make recommendations in this
                                                       Receiverships Is Achieved. Through its annual
report, but we identified a number of lessons
                                                       performance report, the FDIC is accountable for
learned related to contracting and project man-
                                                       reporting actual performance and achieving these
agement that we shared with FDIC divisions
                                                       strategic goals. In addition to the Corporation’s
involved in the project. (EVAL Report No. 04-
                                                       strategic and annual goals and objectives estab-
014, March 26, 2004.)
                                                       lished under the Results Act, the Chairman main-
                                                       tains a comprehensive set of objectives used for
                                                       internal management which are summarized in
9. Assessment of                                       terms of Stability, Sound Policy, and Stewardship.
   Corporate Performance
                                                       The Corporation has made significant progress
Assessing corporate performance is a key chal-         in implementing the Results Act, with which it is
lenge because good intentions and good begin-          required to comply. Over the years, it has devel-

                                                                          Management and Performance Challenges 25
       oped more outcome-oriented performance                porate initiatives in human capital, corporate
       measures, better linked performance goals and         cost efficiencies, and information technology and
       budgetary resources, and improved processes for       security issues.
       verifying and validating reported performance.
       While the FDIC is not included on the Manage-
                                                             Draft 2003 Annual Report: We responded to the
       ment Scorecard nor required to submit a PART
                                                             Chief Financial Officer’s request for comments
       to the OMB, some of the Corporation’s divisions
                                                             on a draft of the FDIC’s 2003 Annual Report.
       have begun using a “scorecard” approach to
                                                             Our comments were advisory in nature and
       monitoring and evaluating performance, and we
                                                             included suggestions for the report regarding
       encourage broader use of these tools.
                                                             (1) recognition of the OIG evaluation function;
                                                             (2) presentation of management and perform-
       My office has played an active role in evaluating     ance challenges; and (3) information in the per-
       the Corporation’s efforts in this area. We have       formance and controls sections of the report.
       conducted reviews of the processes used for
       verifying and validating data and made recom-
       mendations that the Corporation adopted. We
       have also evaluated the Corporation’s budget
       and planning process and are doing so again
                                                             10. Cost Containment and
       because significant changes have been made to             Procurement Integrity
       bring down the cost of formulating and execut-
       ing the budget and more effectively link it to        Stewardship of resources has been a focus of the
       performance goals. Finally, as part of the Cor-       FDIC’s current Chairman. As steward for the
       poration’s overall planning process, we provide       insurance funds, the Chairman has embarked on a
       input and our perspective annually on the             campaign to identify and implement measures to
       FDIC’s strategic goals and objectives. In doing       contain and reduce costs, either through more
       so, we have pointed to the need to better align       careful spending or assessing and making changes
       the strategic and annual planning process under       to business processes to increase efficiency.
       the Results Act with the separate process used to
       develop detailed annual corporate performance
                                                             A key challenge to containing costs relates to the
       objectives and initiatives designed to accom-
                                                             contracting area. To achieve success in this area,
       plish the Chairman’s priorities. During the
                                                             the FDIC must ensure that its acquisition frame-
       reporting period we provided the following
                                                             work—that is, its policies, procedures, and inter-
       advisory comments on the FDIC’s Results Act-
                                                             nal controls—is marked by sound planning;
       related efforts:
                                                             consistent use of competition; fairness; well-
                                                             structured contracts designed to produce cost-
       Draft FDIC Strategic and Annual Plans: We             effective, quality performance from contractors;
       provided advisory comments to the Division of         and vigilant contract management to ensure suc-
       Finance on drafts of the FDIC Strategic Plan and      cessful oversight management activities. The
       2004 Annual Performance Plan. We acknowl-             Corporation has taken a number of steps to
       edged continuing efforts to improve the plans         strengthen controls and oversight of contracts.
       and offered observations and suggestions. These       However, our work in this area continues to
       included (1) considering improving the linkage        show further improvement is needed to reduce
       of the Results Act annual goal-setting process to     risks, such as consideration of contractor secu-
       the separate Corporate Performance Objectives         rity in acquisition planning and oversight of con-
       process and the FDIC’s activities related to the      tractor security practices. We also have a contract
       governmentwide initiatives in the President’s         audit program that looks at the reasonableness
       Management Agenda; (2) updating the strategic         and support for billings on significant Corpora-
       plan section on “FDIC and the Banking Indus-          tion contracts and, as needed, evaluates contract
       try” to reflect additional events warranting inclu-   award processes. Our work in the contracting
       sion; and (3) improving the performance plan by       area during the reporting period included the
       including specific performance goals for key cor-     following:

26 SEMIANNUAL REPORT TO THE CONGRESS
Pre-award Audits                                       Post-award Contract Audits
We issued reports of two pre-award audits for          We issued two post-award contract audit reports
contractor proposals for construction of Virginia      during the reporting period. The objectives of
Square Phase II. The focus of the first was to         the post-award audits are to determine whether
evaluate the reasonableness and support for the        amounts charged to FDIC contracts are allow-
contractor’s proposed costs for excavation, mobi-      able, allocable, and reasonable. We reported a
lization, and concrete engineering for the project.    total of $287,133 in monetary benefits as a result
We questioned $1,329,289 of the contractor’s           of the post-award audits. As of the end of the
proposed costs. FDIC management provided               reporting period, management decisions were
additional information and justification to sup-       pending for the total amount identified as mone-
port the determination that the contractor’s costs     tary benefits.
were fair and reasonable.

We issued a second report discussing the process
by which the FDIC’s Acquisition Services Branch
(ASB) and the contractor arrived at a $78 million
negotiated price and executed a contract modifi-
cation for construction of the remaining balance
of the Virginia Square Phase II project. During
November and December 2003, the OIG, ASB,
the Corporate Services Branch, and the Corpora-
tion’s construction advisors reviewed and evalu-
ated several proposals submitted by the
contractor to complete the Virginia Square proj-
ect. As a result of the collective input and efforts
of all parties involved, ASB was successful in
negotiating a $2 million reduction in the con-
tractor’s proposed price. Of the OIG questioned
costs of $2,231,547, management disallowed             IG Gianni thanks OIG staff on the occasion of the 15th anniversary of
$1,029,649.                                            the FDIC OIG.




                                                                            Management and Performance Challenges 27
                                                     Investigations—
                                                     Making an Impact

The Office of Investigations (OI) is responsible
for carrying out the investigative mission of the
OIG. Staffed with agents in Washington, D.C.;                           Investigative Statistics
Atlanta; Dallas; and Chicago; OI conducts inves-                    October 1, 2003—March 31, 2004
tigations of alleged criminal or otherwise prohib-     Judicial Actions:
ited activities that may harm or threaten to harm        Indictments/Informations . . . . . . . . . . . . . . . . . . 15
the operations or integrity of the FDIC and its          Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
programs. In addition to its two regional offices,     OIG Investigations Resulted in:
based in Atlanta and Dallas, OI operates an Elec-        Fines of . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $5,000
tronic Crimes Team (ECT) and laboratory in               Restitution of . . . . . . . . . . . . . . . . . . . . . . $825,869
Washington, D.C. The ECT is responsible for              Other Monetary Recoveries of . . . . . . . . $884,736
conducting computer-related investigations               Total . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,715,604
impacting the FDIC and providing computer              Cases Referred to the Department of
forensic support to OI investigations nationwide.      Justice (U.S. Attorney) . . . . . . . . . . . . . . . . . . . . . . 17
OI also manages the OIG Hotline for employees,
contractors, and others to report allegations of       Referrals to FDIC Management . . . . . . . . . . . . . . . . 1
fraud, waste, abuse, and mismanagement via a           OIG Cases Conducted Jointly with
toll-free number, regular mail, or e-mail.             Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40


OI Cases Target High-Risk Areas                      Currently, the majority of OI’s caseload is com-
OI concentrates its investigative efforts on those   prised of investigations involving major financial
cases of most significance or potential impact to    institution fraud. OI’s work in this area targets
the FDIC and its programs. OI’s goal, in part, is    schemes that resulted in significant losses or vul-
to bring a halt to the fraudulent conduct under      nerabilities for the institution(s), and/or involves
investigation, protect the FDIC and other vic-       institution officers or insiders, multiple subjects
tims from further harm, and assist the FDIC in       and institutions, obstruction of bank examiners;
recovery of its losses. Another consideration in     and/or misrepresentation of FDIC-insurance or
dedicating resources to these cases is the need to   affiliation. It also includes investigations of fraud
pursue appropriate criminal penalties not only       resulting in institution failures. Cases in this area
to punish the offender but to deter others from      are highly complex and resource-intensive, often
participating in similar crimes.                     requiring teams of agents and years to complete.



                                                                            Management and Performance Challenges 29
                                                                 restitution as of March 2004. In most instances,
   Office of Investigations Case Distribution
                                                                 the convicts subject to these restitution orders
              (as of March 31, 2004)
                                                                 do not have the means to pay. The focus of OIG
                                                                 investigations in this area is on those individuals
                                                                 who do have the means to pay but hide their
                                                                 assets from and/or lie about their ability to pay.
                                                                 The individuals targeted in these investigations
                           Restitution and                       have been previously convicted for engaging in
                             Other Debt
                                 23%
                                                                 fraud schemes that caused major losses to and,
                                                                 in some instances, led to the collapse of federally
                                                                 insured financial institutions. After release from
      Bank/Thrift                                                prison, they continue to perpetuate fraud by ille-
      Operations                       Other
         56%                            7%                       gally transferring and hiding their assets and
                                                                 making false statements to the government
                                                                 about their ability to repay their debt to the
                                                                 FDIC. In many cases, they have continued to live
                                                    Employee
                                                    Activities   lavish lifestyles, while representing to their Pro-
                                                       7%        bation Office and to the FDIC that they have no
                                                                 assets. Although successful prosecutions of these
                                             Asset Management    individuals does not always mean the FDIC will
                                                 and Sales       recover the restitution it is owed; it is imperative
                                                    7%
                                                                 that these individuals be brought to justice and
                                                                 that other convicts who have defrauded our
                                                                 financial institutions recognize that they face the
        Despite the resource demands, the OIG’s com-             possibility of returning to prison if they attempt
        mitment to these investigations is imperative, in        to hide their assets from the Corporation. We
        light of their significance and potential impact         work closely with the Division of Resolutions
        to the FDIC and the banking industry. Addition-          and Receiverships (DRR) and the Legal Division
        ally, from a cost-benefit perspective, these cases       in aggressively pursuing investigations of these
        have brought results that seem to make our               individuals. We believe that a partnership
        investment in them well worth the effort, as             approach and commitment to these cases is crit-
        illustrated in some of the cases reported for this       ical to successfully prosecute those that continue
        period. Although it is impossible to put a price         to defraud the FDIC, and to ensure that the
        tag on the benefit derived from bringing crimi-          FDIC, as the victim, recovers as much of its loss
        nals in these cases to justice, our investigations of    as possible.
        major financial institution fraud schemes have
        brought increased returns measured by success-           Although currently only about 7 percent of our
        ful prosecutions resulting in incarceration,             caseload, the OIG must always be prepared to
        court-ordered fines, restitution to victims, and         commit resources when necessary to investiga-
        administrative actions.                                  tions of criminal or serious misconduct on the
                                                                 part of FDIC employees. These are among the
        In addition to pursuing financial institution-           most sensitive of OIG cases and are critical to
        related cases, the OIG commits significant               ensure the integrity of and public confidence in
        resources to investigations that target fraud by         FDIC operations. Other consistent areas of
        FDIC debtors seeking to conceal their assets             investigation for the OIG are those cases involv-
        from the FDIC. These cases, which include                ing fraud in the sale or management of FDIC
        investigations of individuals who fraudulently           assets and fraud by contractors.
        attempt to avoid payment of court-ordered
        restitution to the FDIC, made up 23 percent of
        our caseload as of March 31, 2004. These cases
                                                                 Partnering for Success
        are of great significance to the FDIC, which was         The OIG works closely with U.S. Attorneys’
        owed more than nearly $1.2 billion in criminal           Offices throughout the country in attempting to

30 SEMIANNUAL REPORT TO THE CONGRESS
bring to justice individuals who have defrauded      Council, state banking regulatory agencies, and
the FDIC. The prosecutorial skills and outstand-     law enforcement agencies to present case studies.
ing direction provided by Assistant U.S. Attor-      Over the last 6 months OI opened 33 new cases
neys with whom we work are critical to our           and closed 31 cases, leaving 112 cases underway
success. The results we are reporting for the last   at the end of the period. Our work during the
6 months reflect the efforts of U.S. Attorneys’      period led to indictments or criminal charges
Offices in the District of Minnesota, Northern       against 15 individuals and convictions of
District of Ohio (Western Division), District of     9 defendants. Criminal charges remained pend-
South Dakota, District of Oklahoma, Northern         ing against 38 individuals as of the end of the
District of Texas, District of Connecticut, North-   reporting period. Fines, restitutions, and recov-
ern District of Alabama, Central District of Illi-   eries stemming from our cases totaled
nois, Western District of Louisiana, Northern        $1,715,604.
District of Georgia, District of New Hampshire,
District of Montana, and the Southern District       The following are highlights of some of the
of Georgia. In addition to working with local        results from our investigative activity over the
U.S. Attorneys’ Offices, the OIG worked with         last 6 months:
Trial Attorneys from the Fraud Section of the
U.S. Department of Justice and State prosecutors
from Missouri and California.                        Fraud Arising at or Impacting
Support and cooperation among other law
                                                     Financial Institutions
enforcement agencies is also a key ingredient for    Former Owners of Sinclair National Bank
success in the investigative community. We fre-      Indicted in Fraud Scheme that Allegedly
quently “partner” with the Federal Bureau of         Led to the Bank’s Failure
Investigation (FBI), the Internal Revenue Service    On November 20, 2003, a grand jury in the West-
Criminal Investigation (IRS-CI), and other law       ern District of Missouri returned a superseding
enforcement agencies in conducting investiga-        indictment against a former owner and board
tions of joint interest.                             member of Sinclair National Bank which failed
                                                     in September 2001. The indictment charged her
Also vital to our success is our partnership with    with conspiracy, bank fraud, misapplication of
FDIC program offices. We coordinate closely          bank funds, making false statements to the Office
with the FDIC’s Division of Supervision and          of the Comptroller of the Currency (OCC), ille-
Consumer Protection in investigating fraud at        gal participation, and obstructing the OCC in the
financial institutions and with DRR and the          examination of Sinclair National Bank.
Legal Division in investigations involving failed
institutions and fraud by FDIC debtors. Our          The woman’s ex-husband, who was co-owner of
ECT coordinates closely with the Division of         the bank and served as its chairman was also
Information Resources Management in carrying         indicted on November 20, but he died shortly
out its mission. The successes highlighted for the   thereafter. A bank contractor, who sold over
period would not have been possible without the      $24 million in sub-prime loans to Sinclair
collaboration of these offices.                      National Bank, and for a time serviced the loans
                                                     for Sinclair National Bank, was also charged with
In addition to carrying out its direct investiga-    conspiracy, misapplication of bank funds, and
tive responsibilities, the OIG is committed to       obstructing the OCC in the examination of the
providing training and sharing information with      bank.
FDIC components and other regulators based
on “lessons learned” regarding red flags and         As described in the indictments, the former
fraud schemes identified through our investiga-      bank owners allegedly conspired to submit a
tions. OI agents provide training and frequently     false document to the OCC in order to influence
give presentations to FDIC staff during regional     acceptance of their application to purchase Sin-
and field meetings. We are also called upon by       clair National Bank. The indictment also alleged
the Federal Financial Institutions Examination       that the defendants obstructed the OCC exami-

                                                                               Investigations—Making an Impact 31
        OI case leads to charges against former bank CEO and others for diverting bank funds for construction of former CEO’s
        home, shown here.


        nation by creating and submitting false docu-                25-count indictment charging the former chair-
        ments to cover up their prior false statements.              man and chief executive officer (CEO) of Com-
                                                                     munity Bank, Blountsville, Alabama, the former
        The defendants allegedly misapplied Sinclair                 vice president of construction and maintenance
        National Bank funds by causing the bank to pur-              of Community Bank, and a bank contractor in
        chase over $15 million in loans from the bank                connection with a scheme to divert Community
        contractor’s company while both had a financial              Bank funds for personal benefit.
        interest in the contractor’s company and with
        the bank contractor personally.                              The indictment charged the defendants with
                                                                     bank fraud, misapplication of bank funds, false
        In addition, the indictment included a forfeiture            statements to a financial institution, and false
        count which seeks $15 million each from the                  entries in the books and records of a financial
        defendants.                                                  institution. The former Chairman and CEO was
                                                                     also charged with money laundering and filing
        The case was brought to the grand jury by the                false tax returns, and the government is also
        Department of Justice, Main Justice Attorneys                seeking forfeiture of $3.45 million from him.
        from the Fraud Section. The case is being inves-
        tigated by the FDIC OIG (Audit and Investiga-                According to the indictment, the former vice
        tions), the Treasury OIG, FBI, and IRS-CI.                   president of construction and maintenance
                                                                     acted as the general contractor and was respon-
                                                                     sible for receiving and approving construction
        Two Former Bank Executives and Business                      invoices on Community Bank projects. The
        Owner Charged with Scheme to Divert                          bank contractor provided construction services
        Bank Funds for Personal Benefit                              on commercial and residential construction
        On October 29, 2003, a federal grand jury in the             projects, including those of Community Bank
        Northern District of Alabama returned a                      and the CEO’s personal projects. The indictment

32 SEMIANNUAL REPORT TO THE CONGRESS
alleged that the three defendants conspired and        the true purpose of the loans, prepared false loan
used $2.15 million in bank funds for construc-         documents, forged borrower signatures, and
tion work on the former CEO’s personal                 falsely reported the loans as being repaid.
projects, including the construction of his
17,000-square-foot house, known as Heritage            As previously reported, the bank’s former presi-
Valley Ranch.                                          dent pleaded guilty to one count of conspiracy
                                                       to commit bank fraud and one count of money
The indictment further alleged that the former         laundering. On September 10, 2003, a third sub-
CEO obtained more than $5 million in bank              ject, the former bookkeeper of Riverwoods
loans in order to build the house but used more        Development Corporation, pleaded guilty to one
than $1.34 million of those funds for other            count of bank fraud.
purposes.
                                                       This case is being investigated jointly by the
Community Bank fired the former CEO in late            FDIC OIG, the FBI, and the IRS-CI, and is being
January 2004, after directors learned that the         prosecuted by the U.S. Attorney’s Office for the
longtime CEO had failed to tell them he had filed      District of Minnesota.
personal bankruptcy. The former CEO remains
on the Community Bancshares Board of Direc-            Former Bank Employee Pleads
tors, a Delaware corporation and holding com-          Guilty to Bank Fraud
pany for Community Bank, having won an                 On March 3, 2004, following her earlier indict-
                                                       ment on related charges, a former employee of
election of the shareholders to remain as a Board
                                                       Soy Capital Bank, Decatur, Illinois, pleaded
member. The former CEO and his family are the
                                                       guilty to embezzlement. The investigation lead-
majority shareholders of Community Bancshares.
                                                       ing to her guilty plea found that the employee
                                                       had embezzled almost $71,000 in funds. On
The investigation of suspected fraud involving
                                                       more than 100 occasions over a 11⁄2 year period,
Community Bank is being conducted by agents
                                                       she obtained funds from bank tellers by falsely
from the FDIC OIG, FBI, and IRS-CI. Prose-
                                                       representing that the cash was needed to pay
cution of the case is being handled by Trial           customers who did not receive the proper
Attorneys from the Department of Justice,              amount of cash from Soy ATM machines.
Washington, D.C., and the U.S. Attorney’s Office
for the Northern District of Alabama.                  The employee also defrauded Citizens Commu-
                                                       nity Bank, where she obtained a branch manager
                                                       position after being terminated from employ-
Commercial Contractor Pleads Guilty to                 ment at Soy Capital Bank. As a service to its cus-
Conspiracy to Commit Bank Fraud                        tomers, Citizens Community Bank accepted
On October 23, 2003, a commercial contractor           certain telephone and utilities payments at the
whose company, Riverwoods Development Cor-             bank, and customers were assured that such pay-
poration, was a customer of the former Town &          ments would be immediately credited to the cus-
Country Bank of Almelund, pleaded guilty to            tomers’ accounts. The telephone and utility
one count of conspiracy to commit bank fraud.          system payments were set up through American
The bank failed in July 2000. Our investigation        Payment Systems (APS). The defendant removed
led to the indictment of the commercial contrac-       $1,000 in funds paid by customers who intended
tor and the bank’s former president and chair-         to pay telephone and utilities bills, hid her activ-
man of the board in connection with their              ity by altering the bank’s teller machine ticket for
involvement in a loan fraud scheme that caused         APS payments, wrote over the figures on the
the bank’s failure and resulted in an original esti-   teller tape, or sometimes tore the tape, thereby
mated loss of $3.4 million to the Bank Insurance       removing certain transactions.
Fund. The fraud conspiracy involved creating
over 20 false lines of credit in order to exceed       This case is being investigated by the FDIC OIG
legal lending limits and funnel bank proceeds to       and the FBI. Prosecution is being handled by the
the contractor’s benefit. Specifically, the co-        U.S. Attorney’s Office for the Central District of
conspirators used nominee borrowers to conceal         Illinois.

                                                                                 Investigations—Making an Impact 33
        Former President of Farmers Bank & Trust              The indictment alleged that the defendant’s
        Pleads Guilty to Bank Fraud                           actions resulted in more than $1 million in
        On October 31, 2003, following his earlier            losses for individuals and businesses and more
        indictment, the former president of Farmers           than $650,000 in losses for three financial insti-
        Bank & Trust, Cheneyville, Louisiana, pleaded         tutions. Those institutions include Northern
        guilty to one count of making false statements to     Star Bank in Mankato, of which the defendant
        a financial institution and one count of making       was a founder; Merchants State Bank of Lewis-
        false entries in the books and records of a finan-    ville, which the indictment claims was forced to
        cial institution.                                     sell its assets to Farmers State Bank of Madelia
                                                              because of the defendant’s unpaid loans; and
        In his guilty plea, the defendant admitted that he    Americana Community Bank in Chanhassen.
        committed bank fraud by making false entries
        and statements on at least 24 loans and applica-      The indictment further alleged that the defen-
        tions for loans. He also admitted to forging doc-     dant started the Ponzi scheme sometime before
        umentation that falsely showed that these loans       January 1, 1999, by enticing individuals and
        were secured by Farm Service Agency guarantees        organizations to invest millions of dollars with
        and to making false entries on the books,             him by promising their investments would be
        reports, statements, and records of the bank that     safe and claiming they would receive a high rate
        misrepresented borrowers’ total indebtedness to       of return. According to the indictment, the
        the bank. To prevent this bank fraud and other        defendant invested only about 30 percent of the
        illegal practices from being detected by an audit     money he received from the investors. The
        conducted by the Louisiana Office of Financial        majority of the funds were used by him for his
        Institutions and the FDIC, the defendant made         personal benefit, to pay personal lines of credit,
        additional false entries on the records of the        and to make lulling payments to other investors.
        bank. He also falsely applied a portion of all of a   The defendant allegedly lulled investors into
        borrower’s indebtedness to nominee loans.             believing their investment funds had been
        These and other actions were taken to misrepre-       invested by making payments to them from
        sent the borrower’s total indebtedness and to         funds obtained from other investors and by pro-
        conceal it from the bank board, the FDIC, and         viding them with statements that purported to
        the state bank examiner.                              show the status of their account and the pur-
                                                              ported rate of return the investor obtained.
        As a result of the defendant’s actions, the bank
        suffered a loss of over $3 million. On December       The grand jury alleged that it was the defen-
        17, 2002, Farmers Bank & Trust was closed by          dant’s Ponzi-type scheme that helped hide his
        bank regulators.                                      fraud until November 2001, when he attempted
                                                              to file bankruptcy. Through this scheme, indi-
        This case is being investigated jointly by the        vidual investors and organizations suffered
        FDIC OIG and the FBI and is being prosecuted          losses well in excess of $1 million.
        by the U.S. Attorney’s Office for the Western Dis-
        trict of Louisiana.                                   In addition to defrauding investors, the indict-
                                                              ment alleged that the defendant fraudulently
        Accountant Indicted for Bank Fraud                    obtained more than $1.6 million from financial
        On December 2, 2003, a federal grand jury in the      institutions, including Northern Star Bank,
        District of Minnesota returned a 26-count             where he was a director and officer. The defen-
        indictment charging a certified public account-       dant allegedly misstated his assets and liabilities,
        ant from North Mankato, Minnesota, with mail          substantially overstating his net worth in order
        fraud, bank fraud, making false statements,           to obtain loans that he used to further his Ponzi
        counterfeiting a security, pension plan theft, fal-   scheme. Financial institutions suffered losses in
        sification of pension plan records, and bank-         excess of $650,000.
        ruptcy fraud in connection with a $7 million
        Ponzi scheme and a $1.6 million bank fraud            The defendant was also charged with stealing
        scheme.                                               from pension plans. The grand jury alleged that

34 SEMIANNUAL REPORT TO THE CONGRESS
                                                        intended to benefit the defendant and the former
                                                        executive vice president of FSBH.

                                                        As previously reported, in August 2002 the for-
                                                        mer executive vice president of FSBH was sen-
                                                        tenced in the United States District Court for the
                                                        Western District of Oklahoma for his role in the
                                                        scheme. He was sentenced to serve 5 years’ pro-
IG Gianni speaks with members of the IG investigative   bation, 180 days’ home confinement, and
community at a meeting of the Southwest IG Council in   208 hours of community service; he was also
Dallas, Texas.
                                                        ordered to pay restitution of $3,529,500.

                                                        The investigation of the activities involving
he stole approximately $100,000 from Catalytic
                                                        FSBH is being conducted jointly by the FDIC
Combustion Corporation, Bloomer, Wisconsin,
                                                        OIG and the FBI. The case is being prosecuted by
in which he was a 40-percent minority share-
                                                        the U.S. Attorney’s Office, Oklahoma City,
holder and the chief financial officer, and
                                                        Oklahoma.
approximately $120,000 from a Mankato archi-
tectural firm.
                                                        Bank Customer Pleads Guilty
Further, the grand jury alleged that in November        in Check-Kiting Scheme
2001, when the defendant’s Ponzi scheme was no          On December 23, 2003, a Kenton, Ohio, car
longer viable and sustainable, the defendant            dealer who was earlier indicted for his role in a
attempted to declare bankruptcy. The indictment         check-kiting scheme at the failed Oakwood
also charged him with bankruptcy fraud in con-          Deposit Bank Company of Kenton pleaded guilty
nection with his November 2001 filing for failing       in the Northern District of Ohio to conspiracy to
to disclose his repayment of a $500,000 loan            commit bank fraud and bank fraud. A check-kite
nearly 5 months prior to his bankruptcy filing.         is a fraudulent scheme in which a bank customer
                                                        uses the time it takes to clear checks to create
This case is being investigated jointly by the          artificially high balances of non-existent funds
FDIC OIG, the FBI, and the U.S. Department of           through a systemic exchange of checks among
Labor’s Employee Benefits Security Administra-          accounts when, in reality, actual funds do not
tion, and is being prosecuted by the U.S. Attor-        exist. He further admitted that he engaged in the
ney’s Office for the District of Minnesota.             check-kiting scheme in which fictitious balances
                                                        were created in checking accounts and false
                                                        credit was obtained. Over a 3-month period in
Bank Customer Found Guilty
                                                        2001, he wrote approximately $70 million in
Following a 9-day trial in December 2003, a bank
                                                        checks to a corresponding car dealership. At the
customer of the First State Bank of Harrah
                                                        same time, he deposited approximately $72 mil-
(FSBH), Harrah, Oklahoma, was found guilty on
                                                        lion in checks from the corresponding dealer-
all counts of an indictment charging him with
                                                        ship. Losses on the check-kite are currently
aiding and abetting, conspiracy, and bank fraud.
                                                        estimated to be over $11 million.
He had been indicted in May 2003 in the Western
District of Oklahoma.
                                                        The check-kite investigation is being investigated
                                                        by the FDIC OIG and the FBI. Prosecution of the
The indictment charged that from September
                                                        case is being handled by the U.S. Attorney’s
1997 through December 1998, the defendant
                                                        Office for the Northern District of Ohio, Western
conspired with the former executive vice presi-
                                                        Division, Toledo.
dent of FSBH to defraud FSBH by creating a
series of fraudulent nominee loans. The defen-
dant recruited nominee borrowers to obtain              Loan Officer Pleads Guilty to Fraud
loans. The loan proceeds from this scheme               On February 6, 2004, a former loan officer at Cit-
totaled approximately $800,000 and were                 izens First Bank, Rome, Georgia, pleaded guilty

                                                                                 Investigations—Making an Impact 35
        in the U.S. District Court for the Northern Dis-      against him, the former CEO was ordered to pay
        trict of Georgia to a 2-count information charg-      back $7.5 million to the FDIC and $8.5 million
        ing him with misapplication of bank funds and         in a civil judgment. His plea agreement required
        false statements.                                     him to relinquish a portion of his income to
                                                              repay the obligation, with the percentage
        In late 1999, the defendant, while serving as a       increasing as the income increases.
        loan officer at Citizens First Bank, misapplied
        approximately $300,000 in funds from the line of      Investigation leading to the indictment devel-
        credit of a bank customer to the operating            oped evidence that the former CEO allegedly
        account of another bank customer. During the          created a trust that he used to conceal earnings
        same period, the defendant made a false entry         from his business; pay his personal expenses,
        into the records of Citizens First Bank by creating   legal and accounting fees; and hide income
        a fictitious customer and a related $800,000 line     payable to him by causing it to be paid directly
        of credit. The defendant continued his scheme of      to the trust. The indictment also alleged that the
        misapplying funds from other customer accounts        former CEO made false monthly reports to the
        and fictitious accounts to a specific bank cus-       U.S. Probation Office to conceal hundreds of
        tomer and, at one point, exposed the bank to          thousands of dollars from the FDIC and avoid
        over $7 million in uncollateralized outstanding       the requirements of the FDIC restitution order.
        loans. Eventually the customer, who claimed no
        knowledge of the defendant’s unauthorized             This case is being investigated by the FDIC OIG.
        actions, worked with bank officials to collateral-    An attorney from the FDIC Legal Division has
        ize or otherwise pay off his outstanding debt.        been designated a Special Assistant U.S. Attor-
                                                              ney, assigned to the U.S. Attorney’s Office for the
        This case is being investigated jointly by the        Northern District of Texas, and is prosecuting
        FDIC OIG and the FBI and is being prosecuted          the case.
        by the U.S. Attorney’s Office for the Northern
        District of Georgia.
                                                              Former Debtor Pleads Guilty to
                                                              Defrauding the FDIC
        Restitution and Other Debt                            On October 20, 2003, an FDIC debtor from
                                                              Concord, New Hampshire, pleaded guilty in the
        Owed the FDIC                                         U.S. District Court for the District of New
        Former CEO of Sunbelt Savings Charged in              Hampshire to two counts of providing false
        21-Count Indictment                                   financial information to the FDIC for the pur-
        On February 24, 2004, a federal grand jury in the     pose of settling a $4.5 million judgment against
        Northern District of Texas returned a 21-count        him. The FDIC obtained the judgment based on
        indictment charging the former CEO of the now         the debtor’s failure to repay two loans from the
        defunct Sunbelt Savings and Loan of Dallas,           former Dartmouth Bank, which failed in 1991.
        Dallas Texas, with six counts of mail fraud, seven    Relying on the personal financial statement the
        counts of false statements, seven counts of con-      debtor provided to the FDIC indicating his
        cealing assets from the FDIC, and one count of        inability to repay loans, the FDIC sold the
        money laundering. The indictment also includes        $4.5 million judgment to a third party for
        a $2,019,964 cash forfeiture allegation.              $160,000.

        According to the indictment, since July 1993, the     In his guilty plea, the debtor admitted he pro-
        former CEO engaged in a scheme to defraud the         vided false financial statements and a false affi-
        FDIC of its payments under a $7.5 million resti-      davit of his financial condition to the FDIC. He
        tution order and an $8.5 million civil judgment.      also admitted that he hid several hundred thou-
        The former CEO pleaded guilty in 1990 to fed-         sand dollars worth of assets in companies he had
        eral fraud charges in connection with the col-        incorporated in Nevada. The money used by the
        lapse of Sunbelt, which lost approximately            third party to purchase the judgment had actu-
        $2 billion during the 1980s. In the criminal case     ally been withdrawn from a bank account of one

36 SEMIANNUAL REPORT TO THE CONGRESS
of the secret Nevada companies by the debtor           This case was investigated by the FDIC OIG. The
himself.                                               case was prosecuted by the U.S. Attorney’s Office
                                                       for the Southern District of Georgia.
This investigation was initiated based on a refer-
ral from the FDIC Legal Division, and the DRR
Dallas office is assisting in the preparation of two   Misrepresentations Regarding
sentencing hearings. Prosecution of the case is        FDIC Insurance or Affiliation
being handled by the U.S. Attorney’s Office for
the District of New Hampshire.                         Broker Dealers and Former President of
                                                       Heritage Savings Bank Charged in 88-Count
                                                       Indictment
FDIC Debtor Returned to Prison After                   On March 24, 2004, a federal grand jury in the
Violating Terms of Probation by                        Northern District of Dallas, Dallas, Texas,
Concealing Assets                                      returned an 88-count superseding indictment
On October 16, 2003, an FDIC debtor from               against the two co-owners of San Clemente Secu-
Dublin, Ohio, was found to have violated two           rities, Inc. (SCS) and United Custodial Corpora-
conditions of his supervised release and was           tion (UCC); a supervisory broker at SCS; and the
placed under arrest. The judge ordered the             former President of Heritage Savings Bank (Her-
defendant to serve two 4-year terms in prison, to      itage), Terrell, Texas.
run consecutively.
                                                       The 88-count superseding indictment charged
In January 1987, the debtor pleaded guilty to          the defendants from SCS and UCC with conspir-
three counts of mail fraud and extortion related       acy, securities fraud, investment advisor fraud,
to a fraudulent scheme to induce Progressive           making false statements to financial institutions,
Savings and Loan (Progressive) to loan the             wire fraud, mail fraud, bank fraud, and obstruct-
debtor’s company $5.7 million. As part of his          ing the examination of a financial institution.
                                                       The former president of Heritage was charged
sentence, the debtor was ordered to pay Progres-
                                                       with conspiracy, assisting the bank fraud, making
sive, and subsequently the FDIC as receiver, a
                                                       false entries in books and records of a financial
sum of $2 million.
                                                       institution, and obstructing the examination of a
                                                       financial institution.
The FDIC investigation found that the debtor
owned and operated five businesses that were           Also, the defendants from SCS and UCC are
involved in selling real estate and financing the      charged with operating a Continuing Criminal
purchases. The debtor stated on his monthly            Enterprise, in violation of 18 U.S.C. 225. This
financial reports to the U.S. Probation Office that    statute, also known as the “Financial Kingpin
he had no business holdings or real estate, when,      Statute,” states that whoever organizes, manages,
in fact, he reported to a local bank that his enti-    or supervises a continuing financial crimes
ties owned real estate with a combined equity of       enterprise and receives $5 million or more in
$1.9 million. The debtor used funds from one of        gross receipts from such enterprise during a
these businesses to pay the mortgage on his per-       24-month period, shall be fined not more than
sonal residence. He also declared on his financial     $10 million and imprisoned for a term of not less
reports that he had a monthly income of $628,          than 10 years up to a possible sentence of life
when, in fact, he transferred at least $200,000        imprisonment. This is the first time a defendant
during a 3-year period from his business               in the Northern District of Texas has been
accounts to a personal checking account.               charged with violating this statute.

In his ruling the judge stated that the debtor had     This indictment expanded the charges that were
shrewdly manipulated legal concepts to achieve         filed in August 2003 by alleging that all four
illegal results and that he had used every device      defendants operated the conspiracy that
available to avoid repaying his restitution            defrauded numerous financial institutions
obligation.                                            throughout the country, as well as numerous

                                                                                Investigations—Making an Impact 37
                                                Electronic Crimes Team
          As computers continue to become a major part of the business operational environment,
          the risk of electronic-related fraud has increased. The OIG is committed to meet the needs
          of the FDIC and the banking community to combat electronic fraud. As a result, the OIG
          established an Electronic Crimes Team (ECT) and computer forensic laboratory, housed in
          Washington, D.C., to investigate unauthorized computer intrusions and computer-related
          fraud impacting FDIC operations, and to provide computer forensic support to OIG investi-
          gations. The ECT is staffed with a Special Agent in Charge, four special agents, and a
          forensic computer specialist, all of whom have been fully trained as Seized Computer Evi-
          dence Recovery Specialists.
          The ECT coordinates with the Division of Information Resources Management and
          affected FDIC program offices in investigating computer-related crimes. In providing com-
          puter forensic support to OIG investigations, the ECT prepares search warrants for elec-
          tronic media, provides on-site support for serving such warrants, conducts laboratory
          analysis of the evidentiary content of electronic media seized during criminal investiga-
          tions, and provides technical advice when computer media are used to perpetrate tradi-
          tional crimes. The ECT attends all bank closings where fraud is suspected and retrieves
          computer media for evidentiary purposes. The ECT has also worked with the Division of
          Resolutions and Receiverships (DRR) in developing guidelines to be followed at bank clos-
          ings for the purpose of preserving evidence. The ECT has also been assisting DRR and the
          Legal Division as they research the feasibility of creating computer forensic capability. ECT
          agents receive intensive training regarding searching, seizing, and analyzing computer
          systems and evidence encountered during the course of an investigation and during exe-
          cution of search warrants. The ECT has made training presentations to FDIC staff at vari-
          ous conferences and meetings to make them aware of the ECT capabilities and to outline
          procedures that should be followed to preserve computer evidence.



        individual investors, from August 1995 to April       ■   SCS and UCC would subtract undisclosed
        2001. Defendants schemed to defraud the vari-             fees and commissions from the amount
        ous financial institutions and individual                 invested.
        investors by inducing them to enter into invest-
        ment contracts to purchase Certificates of            ■   Only part of their investment in any CD was
        Deposits (CDs) and other securities issued by             federally insured.
        the Federal Home Loan Mortgage Corporation
        and the Federal National Mortgage Association,        ■   The investment confirmations and statements
        which would be held and managed by UCC.                   they sent to investors were false and inten-
                                                                  tionally misleading.
        The former president of Heritage, in concert
        with the defendants, allegedly defrauded the          ■   Money paid to investors when they liquidated
        bank by causing it to purchase investments from           an investment prior to maturity was actually
        SCS from which they subtracted substantial                money invested by another investment or by
        undisclosed fees and commissions ranging from             other persons.
        3 percent to 57 percent. The former president
        also made false entries into the books and            ■   The investors had no ownership in any invest-
        records of Heritage with the specific intent to           ment, which would be purchased in UCC’s
        deceive the bank and conceal the fraud.                   name.

        As part of their scheme, the defendants allegedly     ■   In 1997, SCS, along with its co-owners, had
        falsely and fraudulently failed to advise investors       been banned by the National Credit Union
        of the following:                                         Association from doing business with feder-

38 SEMIANNUAL REPORT TO THE CONGRESS
   ally insured credit unions because of their
   deceptive practices.

In addition, on December 17, 2003, an SCS bro-
ker was indicted by the federal grand jury for the
Northern District of Dallas and charged with
one count of false statements. In January 1997
the broker allegedly made a false statement to
Amarillo Federal Credit Union (Amarillo) in
order to influence the decision to purchase CDs
through SCS, in that he falsely represented to
Amarillo that no fees would be charged against
its invested principal. The fee charged to Ama-
rillo was $2,344.

The case is being investigated by the FDIC OIG
and the FBI. The case is being prosecuted by the              John Crawford receives commendation from the FBI (l to r:
                                                              J. Crawford and J. Mack).
U.S. Attorney’s Office for the Northern District
of Dallas. The investigation was initiated based
on a referral from the Division of Supervision
and Consumer Protection.
                                                               Special Agent John Crawford
                                                               Receives Letter of Commendation
Other Highlights                                               from FBI Director
Sioux Falls, South Dakota, Examiners                           On December 15, 2003, OIG Special Agent John
Receive First OIG Awards                                       Crawford received from the Special Agent-in-
Sioux Falls examiners Brian Kerfield and Jeff                  Charge J. Mack, Cleveland, Ohio, a letter of com-
Christensen were recently recognized by the                    mendation signed by Robert S. Mueller, III,
OIG’s Office of Investigations for their work on               Director of the FBI. The commendation recog-
a case involving the fraudulent acts of two for-               nizes Special Agent Crawford for his exceptional
mer Minnesota Bank employees. In part because                  work in the joint investigation with the FBI and
of the examiners’ work, the two former bank                    IRS-CI of an embezzlement of over $48 million
employees eventually pleaded guilty to their                   from Oakwood Deposit Bank Company, Oak-
wrongdoing and received criminal sentences.                    wood, Ohio.




(l to r) Kansas City Regional Director Ron Bieker; Sioux Falls Examiner Jeffrey Christensen (award recipient); Assistant
IG for Investigations Samuel Holland; Deputy Regional Director Thomas Dujenski; and Sioux Falls Examiner Brian Ker-
feld (award recipient).


                                                                                            Investigations—Making an Impact 39
        OIG Acknowledges Assistance on
        Oakwood Deposit Bank Company Case
        Assistant Inspector General Samuel M. Holland
        thanked Special Agents from the FBI and IRS-
        CI, and the Assistant U.S. Attorney Thomas
        Karol for their outstanding contribution and
        dedication to the OIG during the investigation
        of Oakwood Deposit Bank Company.




                                                               FBI Special Agent Thomas Bailey receives commenda-
                                                               tion from Samuel Holland.




        IRS-CI Special Agent Jeffrey Paul receives commenda-   Assistant U.S. Attorney Thomas Karol receives commen-
        tion from Samuel Holland.                              dation from Samuel Holland.




40 SEMIANNUAL REPORT TO THE CONGRESS
                                                         OIG Organization—
                                                         Pursuing OIG Goals

Our office continued to aggressively pursue our              and approximately $1.7 million in total fines,
four main OIG goals and related objectives dur-              restitution, and other monetary recoveries.
ing the reporting period. These goals and objec-
tives form the blueprint for our work. While the         ■   Performed 14 policy analyses on proposed
audit, evaluation, and investigative work                    FDIC directives or proposed revisions to
described in the earlier sections of this report             directives. We raised four policy issues regard-
drives our organization and contributes very                 ing the draft directives. FDIC accepted our
fundamentally to the accomplishment of our                   suggestions for the following: Personnel Suit-
goals, a number of other activities and initiatives          ability Program, Corporation Leave Policy, and
complement and support these efforts and                     Wireless Telephone and Pager Assignments,
enhance the achievement of our goals.                        Usage, Safeguards, and Asset Management. We
                                                             also offered numerous suggestions to
Value and Impact: OIG products will add value by             strengthen or clarify all the draft policies.
achieving significant impact related to addressing
issues of importance to the Chairman, the Con-           ■   Met with the House Financial Services Com-
gress, and the public. This goal means that we               mittee, Subcommittee on Oversight and
contribute to ensuring the protection of insured             Investigations and testified at a hearing held
depositors, safety and soundness of FDIC-                    by the Subcommittee on Oversight of the
supervised institutions, protection of consumer              FDIC. In his testimony, the IG addressed the
rights, achievement of recovery to creditors of              role of the OIG at the FDIC and provided his
receiverships, and effective management of agency            assessment of the management and perform-
resources. Efforts in support of this goal and related       ance challenges facing the Corporation.
objectives include the following:
                                                         ■   Hosted a meeting of the Federal Information
■   Issued 17 audit and evaluation reports con-              Security Management Act (FISMA) Working
    taining questioned costs of $4,288,198 and               Group. This group emanated from the Federal
    51 nonmonetary recommendations. As dis-                  Audit Executive Council—a council made up
    cussed earlier in this report, these reports             of the heads of audit organizations in govern-
    address the management and performance                   ment agencies. More than 40 representatives
    challenges facing the Corporation.                       from government agencies attended the ses-
                                                             sion, including representatives from the U.S.
■   Conducted investigations that resulted in                General Accounting Office (GAO) and the
    15 indictments/informations; 9 convictions;              Office of Management and Budget (OMB).


                                                                             Management and Performance Challenges 41
        ■   Provided to the Chief Financial Officer the            (DRR) is providing us with regular status
            OIG’s assessment of the most significant               information throughout the course of the
            management and performance challenges                  project. We will monitor ASTEP progress and
            facing the Corporation, in the spirit of the           plan to conduct one or more audits during
            Reports Consolidation Act of 2000. The Act             the life of the ASTEP process.
            calls for these challenges to be included in the
            FDIC’s 2003 consolidated performance and           ■   Shared the OIG’s perspectives on the Corpora-
            accountability report and the Corporation              tion’s risk management program and activities
            did so by including them in the Corporation’s          with the Office of Enterprise Risk Manage-
            Annual Report.                                         ment (OERM). We provided briefing materials
                                                                   for OERM’s consideration that addressed such
        ■   Provided advisory comments to the Division             topics as the definition of enterprise risk man-
            of Finance on drafts of the FDIC Strategic             agement, its benefits, and key steps and chal-
            Plan and 2004 Annual Performance Plan. We              lenges in its implementation.
            acknowledged continuing efforts to improve
            the plans and offered observations and sug-        ■   Monitored the Corporation’s New Financial
            gestions. These included (1) considering               Environment (NFE) development efforts by
            improving the linkage of the Government                attending NFE Steering Committee meetings
            Performance and Results Act annual goal-               and reviewing copies of NFE risk evaluation
            setting process to the separate Corporate              reports from OERM.
            Performance Objectives process and the
            FDIC’s activities related to the government-       ■   Participated in an advisory capacity at meet-
            wide initiatives in the President’s Manage-            ings of the Audit Committee’s IT Security
            ment Agenda; (2) updating the strategic plan           Subcommittee, CIO Council, and the Divi-
            section on “FDIC and the Banking Industry”             sion of Information Resources Management
            to reflect additional events warranting inclu-         (DIRM) Transformation Advisory Group.
            sion; and (3) including specific performance
            goals for key corporate initiatives in human       ■   Coordinated with DIRM and agency officials
            capital, corporate cost efficiencies, and              to alert them to a rise in cases involving a mis-
            information technology (IT) and security               use of agency computers.
            issues.
                                                               ■   Served on the Steering Committee for the
        ■   Responded to the Chief Financial Officer’s             Comprehensive Human Resources Informa-
            request for comments on a draft of the                 tion System and for the Corporation’s laptop
            FDIC’s 2003 Annual Report. Our comments                computer replacement project.
            were advisory in nature and included sug-
            gestions for the report regarding (1) recog-       Communication and Outreach: Communications
            nition of the OIG evaluation function,             between the OIG and the Chairman, the Congress,
            (2) presentation of management and per-            employees, and other stakeholders will be effective.
            formance challenges, and (3) information in        We seek to foster effective agency relations and
            the performance and controls sections of the       communications, congressional relations and com-
            report.                                            munications, OIG employee relations and com-
                                                               munications, and relations and communications
        ■   Established involvement with the FDIC’s            with other OIG stakeholders. Efforts in support of
            Asset Servicing Technology Enhancement             this goal and related objectives include the
            Project (ASTEP). ASTEP is intended to              following:
            implement an integrated solution for meeting
            the FDIC’s current and future asset servicing      ■   Participated in a President’s Council on
            responsibilities based on industry standards,          Integrity and Efficiency (PCIE) Roundtable
            best practices, and adaptable technology. The          discussion with other OIGs on the various
            OIG is not part of the ASTEP team, but the             measures and processes used by OIGs to
            Division of Resolutions and Receiverships              measure their performance. Information on

42 SEMIANNUAL REPORT TO THE CONGRESS
OIG Dallas staff Leon Wellons and Rhonda Bunte on left in photo during outreach session with Dallas FDIC corporate
staff.



    strategic and annual goals, performance meas-           ■   Hosted a delegation of government officials
    ures and targets for about 10 OIGs were dis-                from 11 African countries who were invited to
    played, distributed, and discussed. Gary                    the United States under the auspices of the
    Gotherman, the Deputy Assistant Inspector                   State Department’s International Visitor
    General for Quality Assurance, discussed                    Program. Such programs are designed to intro-
    FDIC OIG performance measures. We actively                  duce participants to the structure of trans-
    participate in the monthly roundtables,                     parency, accountability, and ethical systems in
    including a presentation by the Assistant                   government and to highlight the tools used to
    Inspector General for Quality Assurance and                 combat corruption. We briefed the delegation
    Oversight, Robert McGregor, at the November                 on the role and work of the federal IG commu-
    Roundtable, on our client survey process.                   nity and the FDIC OIG, in particular.

■   Met with the Senior Counsel for the House               ■   Hosted an Open House Outreach for the
    Financial Services Committee and other                      Senior Executives of the FDIC to celebrate the
    Committee staff members. Among the topics                   25th Anniversary of the Inspector General Act
    we discussed were the following: The USA                    of 1978. The Open House allowed us a chance
    PATRIOT Act, Bank Secrecy Act (BSA), Busi-                  to celebrate the occasion and an opportunity
    ness Continuity Planning, Federal Financial                 for others in the Corporation to better under-
    Institutions Examination Council, Gramm-                    stand the role and mission of the FDIC OIG.
    Leach-Bliley Act, Prompt Corrective Action
    provisions, controls over expenditures related
    to the Goodwill cases, and our 2004 Assign-
    ment Plan.

■   Testified before the Subcommittee on Govern-
    ment Efficiency and Financial Management,
    Committee on Government Reform, U.S.
    House of Representatives regarding the 25th
    anniversary of the Inspector General Act. As
    Vice Chair of the PCIE, Inspector General
    (IG) Gianni shared a bit of IG history, high-
    lighted the IG community and its accomplish-
    ments, and discussed possible legislative
    changes that could refine the Act.                      IG Gianni welcomes representatives from African countries.


                                                                                  OIG Organization—Pursuing OIG Goals 43
        ■   The OIG provided briefing materials to the
            newest FDIC Director, Thomas J. Curry, con-
            firmed by the U.S. Senate on December 9,
            2003, to familiarize him with the mission and
            work of the OIG at the FDIC.

        ■   Conducted presentations on strategies for
            accelerating financial reporting. Beginning
            with the current fiscal year, many federal
            agencies will be required to complete audited
            financial statements within 45 days after the
            fiscal year-end. Previously, the requirement
            was about 5 months after fiscal year-end. The
            OIG’s Ross Simms is the Chair of the Acceler-
            ated Financial Reporting Working Group for-
            mulated by the PCIE’s Federal Audit
            Executive Council to assist the audit commu-
            nity in this initiative. His group worked with
            the Chief Financial Officers Council and         OIG’s Ross Simms is collaborating with GAO to share
            organized a governmentwide forum on accel-       Yellow Book expertise with others in the government.
            erated financial reporting challenges and
            solutions. Mr. Simms pursued other related
            activities, including authoring a white paper        Protecting the Financial Sector—A Public and
            and making presentations at training forums          Private Partnership. The sessions examined
            to promote accelerated financial reporting           various aspects of the security of the U.S.
            best practices.                                      financial sector and addressed steps that
                                                                 banks can take to protect themselves.
        ■   Spoke at and/or participated in a number of
            professional meetings and conferences,           ■   Contributed to successful “Groundhog Job
            including the following: Treasury Board of           Shadow Day” event. Members of the OIG’s
            Canada Conference for the Heads of Internal          Dallas staff participated in the Groundhog Job
            Audit; National Intergovernmental Audit              Shadow Day program, sponsored jointly by
            Forum Meeting; the Institute for Internal            the FDIC and Junior Achievement. This ini-
            Auditors (IIA) International Committee               tiative was dedicated to engaging high school
            Meetings; Accountants’ Roundtable; South-            students in the world of work and demon-
            western Region Inspectors General Council            strating the connection between academics
            Meeting; IIA Auditing in Government                  and careers. Charles Chisolm, a Special Agent
            Conference: Changing World—Changing                  in our Dallas Office of Investigations, emceed
            Solutions; Joint Financial Management                the Corporation’s overall program. Rhonda
            Improvement Program Conference: Improv-              Bunte from our Office of Audits presented an
            ing Performance with Useful Financial Infor-         overview of the OIG and stressed the impor-
            mation; and PCIE/ECIE Inspectors General             tance of education as students prepare for
            Conference 2004: Returning America’s Invest-         future jobs. OIG auditors and investigators
            ment in the IGs.                                     also made presentations to a smaller group of
                                                                 students.
        ■   Attended the FDIC-sponsored outreach
            meeting of the Financial and Banking Infor-      ■   Collaborated with the GAO on the Comptrol-
            mation Infrastructure Committee and the              ler General’s team that is conducting presen-
            Financial Services Sector Coordinating Coun-         tations on the Government Auditing
            cil in Charlotte, North Carolina. Assistant          Standards, commonly referred to as The Yel-
            Inspector General for Audits, Rus Rau,               low Book. Mr. Ross Simms from the OIG is on
            attended the meeting, the theme of which was         the team that is part of an outreach effort to

44 SEMIANNUAL REPORT TO THE CONGRESS
    provide federal, state, and local auditing or           red flags based on its experience with failed
    accountability professionals with technical             institutions.
    support in applying generally accepted gov-
    ernment auditing standards. Mr. Simms par-          ■   Participated in monthly meetings of the
    ticipated in a presentation to the Department           Interagency Bank Fraud Working Group.
    of Interior OIG. Presentations are also sched-
    uled for conferences and meetings of profes-        ■   Coordinated with IGs, Assistant Inspectors
    sional organizations such as the Association            General for Audits, and Assistant Inspectors
    of Government Accountants.                              General for Investigations of federal financial
                                                            institution regulatory agencies.
■   Presented information on FISMA issues to
    the PCIE’s Information Technology Round-            ■   Continued participation on the Federal Audit
    table. At the session, Assistant Inspector              Executive Council, including planning for its
    General for Audits, Rus Rau, spoke to repre-            annual conference, chairing the IT Security
    sentatives from federal Offices of Inspector            Subcommittee, and participating on the audit
    General, the OMB, the National Institute of             issues sub-group.
    Standards and Technology, and the GAO on
    “An IG Perspective of the Federal Information       ■   Coordinated with the Corporation’s Office of
    Security Management Act.” Mr. Rau also                  Legislative Affairs with respect to the FDIC
    made a FISMA presentation to the Washing-               Chairman’s and IG’s testimony before the
    ton Chapter of the Information Systems                  Subcommittee on Oversight and Investiga-
    Audit and Control Association and spoke of              tions, House Financial Services Committee,
    information assurance auditing to the                   on Oversight of the FDIC.
    Institute for Defense and Government
    Advancement.                                        ■   Completed an external peer review of the
                                                            Department of Commerce OIG.
■   Attended a PCIE Roundtable meeting focused
                                                        ■   Provided a briefing and tour of the OIG’s
    on “Examining the OIG Role in the Applica-
                                                            audit computer lab to other OIGs.
    tion of the OMB Program Assessment Rating
    Tool (PART).” The PART provides a consis-
                                                        ■   Provided weekly highlights reports to the
    tent approach to rating programs across the
                                                            FDIC Chairman to keep him informed of sig-
    federal government—although it has not
                                                            nificant OIG events.
    been applied to the FDIC. It is designed to
    focus attention on specific program perform-
                                                        ■   Focused multiple efforts on OIG employees:
    ance and demonstrates OMB support for
                                                            Selected a new diversity coordinator from
    moving the theory of the Government Perfor-
                                                            among OIG staff, planned for new members
    mance and Results Act to practice.
                                                            to serve on the IG’s Employee Advisory
                                                            Group to provide feedback to the IG on the
■   Acknowledged the efforts of FDIC examina-               working conditions and business processes of
    tion staff and law enforcement officials who            the office, and worked with a consultant to
    have helped us bring about successful                   develop and administer an OIG employee
    investigations.                                         survey instrument.

■   Continued ongoing meetings between the              ■   Planned for the OIG’s sixth client survey to
    Executives of the OIG and the FDIC’s Divi-              solicit feedback from corporate management.
    sion and Office Heads in both headquarters
    and regional offices to foster and sustain suc-     Human Capital: The OIG will align its human
    cessful cooperation and communication in all        resources to support the OIG mission. We aim to
    aspects of our audit, evaluation, and inves-        enhance our workforce analysis and planning,
    tigative activities. The Office of Investigations   competency investments, leadership development,
    continued presentations in lessons learned/         and the development of a results-oriented, high-

                                                                             OIG Organization—Pursuing OIG Goals 45
       OIG’s Bob McGregor highlights features of the OIG’s
       Strategic Plan at Fall 2003 OIG conference.




                                                                 OIG staff actively participates in OIG’s Fall 2003 Confer-
       IG acknowledges OIG staff’s federal service. Shown here   ence. Seen here top to bottom, Scott Miller, Mike
       Joan Green, Atlanta OIG, with IG Gianni.                  Rexrode, Allan Sherman.



        performance culture. Efforts in support of this goal        has made in adding value and being attentive
        and related objectives include the following:               to our clients. The Division Directors from
                                                                    the Division of Supervision and Consumer
        ■   Held an office-wide conference in October,              Protection, DRR, and the Division of Insur-
            the theme of which was “What’s Next.” Staff             ance and Research updated us on the major
            came together to discuss the OIG’s mission,             initiatives and issues of their offices and
            vision, core values, and the strategic goals and        offered perspectives on corporate challenges
            objectives designed to realize them. Other ses-         going forward. A representative from the
            sions covered topics of interest in such areas          Legal Division provided our staff with an
            as Communications, Diversity, Career Man-               important Ethics briefing. Representatives
            agement, and the OIG’s Competencies                     from the Corporation also provided informa-
            Project. FDIC Vice Chairman Reich provided              tion on the Corporate University and career
            insightful comments on the progress the OIG             development resources.

46 SEMIANNUAL REPORT TO THE CONGRESS
                                                           protecting against fraud, waste, and abuse in
                                                           FDIC programs and activities. Although pre-
                                                           pared independently from the Corporation’s
                                                           planning process, the OIG plan is linked to
                                                           the Corporation’s mission and strategic goals
                                                           and demonstrates our commitment to apply-
                                                           ing the principles of the Government Perfor-
                                                           mance and Results Act to OIG operations.
                                                           The plan reflects our emphasis on (1) adding
                                                           value by achieving impact on issues of signifi-
                                                           cance to the Corporation and our other
                                                           stakeholders; (2) fostering effective commu-
                                                           nications with our stakeholders; (3) aligning
                                                           human resources to support the OIG mission;
                                                           and (4) managing our resources effectively.

                                                       ■   Issued FY 2004 Performance Plan and posted
Vice Chairman Reich addresses OIG staff at Fall 2003       it on our Web site at http://www.fdicig.gov.
conference.                                                The performance plan identifies 41 specific
                                                           annual performance goals designed to help us
                                                           achieve our strategic goals and objectives. In
                                                           addition, the plan reflects improved linkages
■   Issued an exposure draft Guide for Develop-            to the FDIC Strategic Plan, the OIG Human
    ing OIG Core Competency Skills and com-                Capital Strategic Plan, the OIG-identified
    pleted a study of the trends in OIG training.          Management and Performance Challenges
                                                           Facing the FDIC, and the OIG Office of
■   Developed a strategy for enhancing feedback            Audits’ Assignment Plan.
    mechanisms in the OIG.

■   Held meetings with the FDIC Mentoring
    Coordinator to obtain information and gath-
    ered information from other government
    agencies with mentoring programs for use in
    a planned OIG program.

■   Provided our draft Strategic Plan to stake-
    holders as part of our process to update the
    OIG Strategic Plan for FY 2004–2008. We
    provided our draft plan to Vice Chairman
    Reich, Deputies to the Chairman, Division
    and Office Directors, and selected Congres-
    sional committees. We place great importance
    in our work being responsive, relevant, and
    fully aligned with our mission and appreci-
    ated comments received.

■   Finalized the OIG Strategic Plan for FY
    2004–2008 and posted it on our Web site at         Student Intern Assists OIG
                                                       Jeanette Staton is a senior at the University of the Dis-
    http://www.fdicig.gov. The OIG Strategic Plan      trict of Columbia and is majoring in journalism and mass
    sets forth the broad goals and objectives for      media. Jeanette contributed to the OIG by assisting the
                                                       IG with many activities of the PCIE, particularly data
    carrying out the OIG’s mission of promoting        collection and analysis for the Progress Report to the
    economy, efficiency, and effectiveness, and        President.


                                                                             OIG Organization—Pursuing OIG Goals 47
              ■   Engaged in the Corporation’s Corporate                         authorized staff (5 percent) from fiscal year
                  Manager/Executive Manager program for                          2004. The budget must also absorb higher
                  grade level 15 OIG staff by redefining the                     projected expenses for salaries, employee ben-
                  responsibilities for a number of OIG staff in                  efits, and other costs that will increase due to
                  those positions. Also undertook hiring efforts                 inflation. This will become the ninth consecu-
                  to replenish the skills and expertise of depart-               tive year OIG budgets have decreased after
                  ing FDIC OIG employees and infuse the OIG                      adjusting for inflation.
                  with new skills and talents to carry out the
                  OIG mission. Sponsored participation of an                 ■   Held Office of Audits training to ensure qual-
                  OIG employee in leadership training held for                   ity work related to the following: the new
                  the PCIE by the Federal Executive Institute in                 Government Auditing Standards (Yellow
                  Charlottesville, Virginia.                                     Book) issued by the GAO, OIG reporting, and
                                                                                 TeamMate—an essential automated work
              Productivity: The OIG will effectively manage its                  tool used by our auditors and evaluators in
              resources. We have taken steps to contain OIG costs                conducting their assignments.
              and undertook several initiatives to ensure that
              our processes are efficient and that our products              ■   Redesigned the OIG Web Page http://www.
              meet quality standards. Efforts in support of this                 fdicig.gov by adding features that will be help-
              goal and related objectives include the following:                 ful to our FDIC and congressional clients as
                                                                                 well as other users. The new site provides a
              ■   Formulated OIG Budgets for Fiscal Years                        quick reference to the latest OIG news by fea-
                  2004–2005. The OIG’s fiscal year 2004 appro-                   turing a regularly updated list of publicly
                  priation, totaling $30.1 million, was signed                   released reports, the semiannual report, and
                  into law by the President on January 23, 2004,                 other information. Also, the site has a search
                  Public Law 108-199. This budget supports a                     engine that will help users find OIG informa-
                  reduced authorized staffing level of 168, or 22                tion on various topics, including publicly
                  fewer staff than authorized in fiscal year 2003.               available audit reports dating back to 1998.
                  The OIG reached the reduced staffing levels
                  last year through use of the corporate buyout              ■   Continued developing an executive informa-
                  program, early retirement opportunities, and                   tion system to improve the efficiency of OIG
                  a reduction-in-force. The proposed fiscal year                 management oversight of internal operations
                  2005 OIG budget of $29.9 million was                           and drafting an OIG IT Plan to guide internal
                  included in the President’s budget that was                    IT priorities and ensure efficient and secure
                  transmitted to the Congress on February 2,                     use of OIG IT resources.
                  2004. The budget will support an authorized
                  staffing level of 160, a further reduction of 8            ■   Engaged in a major records management
                                                                                 effort wherein large quantities of the OIG’s
                                                                                 audit and evaluation-related paper files were
                                                                                 replaced with electronic files in the interest of
                                                                                 streamlining records and facilitating record
                                                                                 storage.

                                                                             ■   Completed internal quality control reviews of
                                                                                 two audit/evaluation directorates and the
                                                                                 Office of Audits’ continuing professional edu-
                                                                                 cation efforts and noted no material instances
                                                                                 of noncompliance.

                                                                             ■   Revised Office of Investigations policies to
OIG’s records management initiative transfers thousands of paper                 update and keep current with PCIE guide-
files to electronic format for increased efficiency. Pictured here left to
right: contractor employee Marvin Brown and Office of Audits’ Julio              lines and recent Department of Justice guid-
Santos.                                                                          ance for law enforcement officers.

48 SEMIANNUAL REPORT TO THE CONGRESS
                                               OIG Counsel Activities
                                             (October 2003–March 2004)
The Mission of the Office of Counsel
The Office of Counsel provides independent legal advice and assistance to the Inspector General and the staff of the OIG. The
Office litigates personnel and other cases; provides advice and counsel on matters arising during the course of audits, inves-
tigations, and evaluations, including reviewing reports for legal sufficiency; manages the OIG’s Ethics process; reviews, ana-
lyzes, and comments on proposed or existing regulations or legislation, including banking legislation and implementing
regulations; communicates and negotiates with other entities on behalf of the OIG; responds to Freedom of Information Act
and Privacy Act requests and appeals; prepares and enforces subpoenas for issuance by the Inspector General; and coordi-
nates with the Legal Division, the Department of Justice, and other agency and governmental authorities. Examples include:

 Litigation                   Counsel’s Office is representing the OIG in hearings before the Equal Employment Opportunity
                              Commission and before the District Court for the District of Columbia. The Office of Counsel is
                              currently involved in 22 litigation matters that are awaiting further action by the parties or rul-
                              ings by the court or other adjudicatory bodies.

 Advice and Counseling        Counsel’s Office provided advice and counseling, including written opinions, on issues involv-
                              ing closed bank matters and bank supervision, the Bank Secrecy Act, OIG Hotline complaints,
                              administrative costs and security practices for receiverships, investigative matters, contract
                              interpretations, and various ethics-related matters. In addition, Counsel’s Office provided com-
                              ments relative to the legal accuracy and sufficiency of more than eight audit and evaluation
                              reports.

 Legislation/Regulation       During this reporting period, Counsel’s Office reviewed one proposed formal FDIC regulation.
 Review                       The office also commented on six proposed or final directives and various policies.

 Subpoenas                    Counsel’s Office prepared four subpoenas for issuance by the Inspector General during this
                              reporting period.

 Freedom of Information       Counsel’s Office responded to five requests under the Freedom of Information Act.
 and/or Privacy Act




                                            OIG Organizational Chart


                                                Inspector General
                                               Gaston L. Gianni, Jr.                                  Counsel to the
                                                                                                    Inspector General
                                            Deputy Inspector General                                   Fred W. Gibson
                                                Patricia M. Black




                    Office of Audits                                        Office of Investigations

              Assistant Inspector General                                Assistant Inspector General
                      Russell Rau                                            Samuel M. Holland




                Office of Management                                           Office of Quality
              and Congressional Relations                                  Assurance and Oversight

              Assistant Inspector General                                Assistant Inspector General
                     Rex Simmons                                            Robert L. McGregor



                                                                                            OIG Organization—Pursuing OIG Goals 49
                                                        Points of Contact
                            Title                                            Name             Telephone Number

                            Inspector General                         Gaston L. Gianni, Jr.     202-416-2026
                            Deputy Inspector General                  Patricia M. Black         202-416-2474
                            Counsel to the Inspector General          Fred W. Gibson            202-416-2917
                            Assistant Inspector General for Audits    Russell Rau               202-416-2543
                              Deputy Asst. Inspector General            Stephen Beard           202-416-4217
                              for Audits
                              Deputy Asst. Inspector General            Sharon Smith            202-416-2430
                              for Audits
                            Assistant Inspector General for           Samuel Holland            202-416-2912
                              Investigations
                            Assistant Inspector General for           Rex Simmons               202-416-2483
                              Management and Congressional
                              Relations
                            Assistant Inspector General for Quality   Robert McGregor           202-416-2501
                              Assurance and Oversight



                            Table 1: Significant OIG Achievements
                                        (October 2003–March 2004)

                            Audit and Evaluation Reports Issued                                      17
                            Questioned Costs and Funds Put to Better Use                             $4.3 million
                            Investigations Opened                                                    33
                            Investigations Closed                                                    31
                            OIG Subpoenas Issued                                                      4
                            Convictions                                                               9
                            Fines, Restitution, and Monetary Recoveries                              $1.7 million
                            Hotline Allegations Referred                                             25
                            Proposed Regulations and Legislation Reviewed                             1
                            Proposed FDIC Policies Reviewed                                          14
                            Responses to Requests and Appeals under the
                               Freedom of Information Act                                             5




                            Table 2: Nonmonetary Recommendations

                            October 2001–March 2002                                                            68
                            April 2002–September 2002                                                          73
                            October 2002–March 2003                                                            90
                            April 2003–September 2003                                                       103
                            October 2003–March 2004                                                            51




50 SEMIANNUAL REPORT TO THE CONGRESS
Figure 1: Products Issued and Investigations Closed

40
        10/01 – 3/02                                 36     36
35      4/02 – 9/02
        10/02 – 3/03                                                                31
30      4/03 – 9/03
        10/03 – 3/04      27
                                                                    26
25
                     22
                                 20
20        19
                                         17                              17
15

10

 5

 0
               Audits and Evaluations                        Investigations


Figure 2: Questioned Costs/Funds Put to Better Use
                 (in millions)
5.0
          10/01 – 3/02
4.5       4/02 – 9/02                                                         4.3
          10/02 – 3/03
4.0       4/03 – 9/03
          10/03 – 3/04
3.5

3.0

2.5
                               2.1
2.0
               1.6
1.5                                           1.26            1.3

1.0

0.5

0.0
      Audits and Evaluations


Figure 3: Fines, Restitution, and Monetary Recoveries
          Resulting from OIG Investigations (in millions)
900
                               820
800

700

600
               536
500

400

300

200

100                                                          68.1
                                              26.2
                                                                              1.7
  0
         10/01 - 03/02    4/02 - 09/02    10/02 - 03/03   4/03 - 09/03   10/03 - 03/04
                                                          OIG Organization—Pursuing OIG Goals 51
                                                                                  Reporting Terms
                                                                                  and Requirements

Index of Reporting Requirements—Inspector General Act of 1978,
as amended
Reporting Requirement                                                                                                                                Page

Section 4(a)(2): Review of legislation and regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
Section 5(a)(1): Significant problems, abuses, and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9–27
Section 5(a)(2): Recommendations with respect to significant problems, abuses,
  and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9–27
Section 5(a)(3): Recommendations described in previous semiannual reports on which
  corrective action has not been completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
Section 5(a)(4): Matters referred to prosecutive authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused . . . . . . 59
Section 5(a)(6): Listing of audit reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
Section 5(a)(7): Summary of particularly significant reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9–27
Section 5(a)(8): Statistical table showing the total number of audit reports and the total
  dollar value of questioned costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58
Section 5(a)(9): Statistical table showing the total number of audit reports and the total
  dollar value of recommendations that funds be put to better use . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58
Section 5(a)(10): Audit recommendations more than 6 months old for which no
  management decision has been made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
Section 5(a)(11): Significant revised management decisions during the current
  reporting period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
Section 5(a)(12): Significant management decisions with which the OIG disagreed . . . . . . . . . . . . . . . 59




                                                                                                              Management and Performance Challenges 53
       Reader’s Guide to Inspector                                necessary. In the case of questioned costs, this
                                                                  management decision must specifically address
       General Act Reporting Terms                                the questioned costs by either disallowing or not
       What Happens When Auditors Identify                        disallowing these costs. A “disallowed cost,”
       Monetary Benefits?                                         according to the Inspector General Act, is a ques-
       Our experience has found that the reporting ter-           tioned cost that management, in a management
       minology outlined in the Inspector General Act             decision, has sustained or agreed should not be
       of 1978, as amended, often confuses people. To             charged to the government.
       lessen such confusion and place these terms in
       proper context, we present the following                   Once management has disallowed a cost and, in
       discussion:                                                effect, sustained the auditor’s questioned costs,
                                                                  the last step in the process takes place which cul-
       The Inspector General Act defines the terminol-            minates in the “final action.” As defined in the
       ogy and establishes the reporting requirements             Inspector General Act, final action is the comple-
       for the identification and disposition of ques-            tion of all actions that management has deter-
       tioned costs in audit reports. To understand how           mined, via the management decision process, are
       this process works, it is helpful to know the key          necessary to resolve the findings and recommen-
       terms and how they relate to each other.                   dations included in an audit report. In the case of
                                                                  disallowed costs, management will typically eval-
       The first step in the process is when the audit            uate factors beyond the conditions in the audit
       report identifying questioned costs1 is issued to          report, such as qualitative judgments of value
       FDIC management. Auditors question costs                   received or the cost to litigate, and decide
       because of an alleged violation of a provision of a        whether it is in the Corporation’s best interest to
       law, regulation, contract, grant, cooperative              pursue recovery of the disallowed costs. The
       agreement, or other agreement or document                  Corporation is responsible for reporting the dis-
       governing the expenditure of funds. In addition,           position of the disallowed costs, the amounts
       a questioned cost may be a finding in which, at            recovered, and amounts not recovered.
       the time of the audit, a cost is not supported by
       adequate documentation; or, a finding that the             Except for a few key differences, the process for
       expenditure of funds for the intended purpose is           reports with recommendations that funds be put
       unnecessary or unreasonable.                               to better use is generally the same as the process
                                                                  for reports with questioned costs. The audit
       The next step in the process is for FDIC manage-           report recommends an action that will result in
       ment to make a decision about the questioned               funds to be used more efficiently rather than
       costs. The Inspector General Act describes a               identifying amounts that may need to be eventu-
       “management decision” as the final decision                ally recovered. Consequently, the management
       issued by management after evaluation of the               decisions and final actions address the imple-
       finding(s) and recommendation(s) included in               mentation of the recommended actions and not
       an audit report, including actions deemed to be            the disallowance or recovery of costs.




       1
           It is important to note that the OIG does not always
           expect 100 percent recovery of all costs questioned.

54 SEMIANNUAL REPORT TO THE CONGRESS
                                                      Statistical Information
                                                      Required by the
                                                      Inspector General Act
                                                      of 1978, as amended

Table I: Significant                                  after March 31, 2002. These 27 recommenda-
                                                      tions from 8 reports involve monetary amounts
Recommendations From                                  of over $5.7 million. OERM has categorized the
Previous Semiannual Reports on                        status of these recommendations as follows:
Which Corrective Actions Have
Not Been Completed                                    Management Action in Process:
                                                      (8 recommendations from 6 reports)
This table shows the corrective actions manage-       Management is in the process of implementing
ment has agreed to implement but has not com-         the corrective action plan, which may include
pleted, along with associated monetary amounts.       modifications to policies, procedures, systems or
In some cases, these corrective actions are differ-   controls; issues involving monetary collection;
ent from the initial recommendations made in          and settlement negotiations in process.
the audit reports. However, the OIG has agreed
that the planned actions meet the intent of the
initial recommendations. The information in           Litigation: (19 recommendations from
this table is based on (1) information supplied       2 reports, $5.7 million)
by the FDIC’s Office of Enterprise Risk Manage-       Each case has been filed and is considered “in lit-
ment (OERM) and (2) the OIG’s determination           igation.” The Legal Division will be the final
of closed recommendations for reports issued          determinant for all items so categorized.




                                                                        Management and Performance Challenges 55
        Table I: Significant Recommendations From Previous Semiannual Reports on
                 Which Corrective Actions Have Not Been Completed
                                                    Significant
        Report Number,                              Recommendation         Brief Summary of Planned Corrective Actions
        Title & Date                                Number                 and Associated Monetary Amounts

       Management Action In Process
        EVAL-01-002                                 3                      Re-designate position sensitivity levels for examiner
        FDIC’s Background Investigation                                    positions to reflect their public trust responsibilities.
        Process for Prospective and Current         4*                     Alert the Security Management Section of all personnel
        Employees                                                          assignments to positions where users have access to
        August 17, 2001                                                    sensitive computer systems or data.
        02-023                                      3*                     Discontinue the practice of using shared or office-wide
        Internal and Security Controls Related                             passwords when accessing GENESYS to conduct safety
        to the General Examination System                                  and soundness examinations.
        (GENESYS)
        July 31, 2002
        02-035                                      4                      Develop the capability of oversight managers to monitor
        Information Security Management of                                 security practices by providing adequate guidance and
        FDIC Contractors                                                   training on security oversight and security evaluation.
        September 30, 2002
        03-031                                      1                      Develop a human capital staffing plan to identify and
        FDIC’s Implementation of Its                                       address any shortfalls in staff resources or skill mix for the
        Information Security Plan                                          IT security program identified in the staffing and skill
        July 18, 2003                                                      assessment.
        03-036                                      1                      Obtain written reports from independent auditors perform-
        Material Loss Review of the Failure of                             ing bank audits to bank boards of directors disclosing all
        Southern Pacific Bank, Torrance,                                   reportable conditions found during audits or confirming
        California                                                         that there were no reportable conditions.
        August 14, 2003
        03-045                                      1                      Conduct a senior management review of the NFE project
        New Financial Environment (NFE)                                    to establish metrics for measuring progress and project
        Scope Management Controls                                          re-evaluation criteria if the measures are not achieved.
        September 29, 2003
                                                    2                      Direct the NFE Steering Committee to ensure that the
                                                                           project scope is promptly finalized and that impacts to the
                                                                           schedule are adequately managed.

       Litigation
         96-014                                     1, 4-16                Recover $4,526,389 of assistance paid to Superior Bank.
         Superior Bank, F.S.B., Assistance
         Agreement, Case Number C-389c
         February 16, 1996
        98-026                                      2, 3, 4, 6             Recover $1,220,470 of assistance paid to Superior Bank.
        Assistance Agreement Audit of
        Superior Bank, Case Number C-389c           11                     Compute the effect of understated Special Reserve
        March 9, 1998                                                      Account for Payments in Lieu of Taxes and remit any
                                                                           amounts due to the FDIC.

       *The OIG has not evaluated management’s actions in response to OIG recommendations.




56 SEMIANNUAL REPORT TO THE CONGRESS
 Table II: Audit Reports Issued by Subject Area
                             Audit Report                                      Questioned Costs
                                                                                                     Funds Put to
 Number and Date                                  Title                    Total      Unsupported     Better Use

Supervision and Insurance
 04-004                           Observations from FDIC OIG Material
 January 22, 2004                 Loss Reviews Conducted 1993
                                  through 2003
 04-013                           FDIC’s Reliance on State Safety
 March 26, 2004                   and Soundness Examinations
 EVAL-04-014                      XBAT Contracting and Project
 March 26, 2004                   Management
 04-015                           Division of Supervision and Consumer
 March 29, 2004                   Protection’s Supervisory Appeals
                                  Process
 04-017                           Supervisory Actions Taken for Bank
 March 31, 2004                   Secrecy Act Violations

Resolution, Receivership,
and Legal Affairs
 04-002                           FDIC’s 2003 Service Line Rates
 January 15, 2004
 04-012                           Audit of Limited Partnership           $328,934
 March 16, 2004

Information Assurance
  04-008                          FDIC’s Unix Systems Security
  February 13, 2004
 04-009                           FDIC’s Intrusion Detection and
 February 13, 2004                Incident Response Capability
 EVAL-04-011                      FDIC’s Approach to Data Sensitivity
 February 27, 2004                for Legacy Applications
 04-016                           FDIC’s Personnel Security Program
 March 30, 2004

Resources Management
 EVAL-04-005                      FDIC’s Strategic Alignment of Human
 January 23, 2004                 Capital
 04-007                           FDIC-Sponsored Dental Insurance        $110,295
 January 30, 2004                 Eligibility and Premium Payments

Post-award Contract Audits
 04-003                           Post-award Contract Audit              $112,106
 January 21, 2004
 04-006                           Post-award Contract Audit              $175,027
 January 30, 2004

Pre-award Contract Audits
 04-001                           Pre-award Contract Audit               $1,330,289
 December 16, 2003
 04-010                           Pre-award Contract Audit               $2,231,547    $2,231,547
 February 18, 2004

 TOTALS FOR THE PERIOD                                                   $4,288,198    $2,231,547         $0


                                                                                                    Statistical Information 57
         Table III: Audit Reports Issued with Questioned Costs
                                                                                                                      Questioned Costs
                                                                                        Number                  Total             Unsupported

       A. For which no management decision has been made by the                            1                   $9,375                 $9,375
          commencement of the reporting period.
       B. Which were issued during the reporting period.                                   6                 $4,288,198             $2,231,547
       Subtotals of A & B                                                                   7                $4,297,573             $2,240,922
       C. For which a management decision was made during the                              4                 $3,681,506             $2,240,922
          reporting period.
          (i) dollar value of disallowed costs.                                             2                $1,139,944             $1,029,649
          (ii) dollar value of costs not disallowed.                                       3*                $2,541,562             $1,211,273
       D. For which no management decision has been made by the                            3†                 $616,067                   $0
          end of the reporting period.
          Reports for which no management decision was made                                0                      $0                     $0
          within 6 months of issuance.
       *The one report included on the line for costs not disallowed is also included on the line for costs disallowed, since management did not
        agree with some of the questioned costs.
       †Management response not due until May 17, 2004, for one report with questioned costs totaling $328,934.




         Table IV: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                                              Number               Dollar Value

       A. For which no management decision has been made by the commencement of                                   0                      0
          the reporting period.
       B. Which were issued during the reporting period.                                                          0                      0

       Subtotals of A & B                                                                                         0                      0
       C. For which a management decision was made during the reporting period.                                   0                      0
          (i) dollar value of recommendations that were agreed to by management.                                  0                      0
               • based on proposed management action.                                                             0                      0
               • based on proposed legislative action.                                                            0                      0
          (ii) dollar value of recommendations that were not agreed to by management.                             0                      0
       D. For which no management decision has been made by the end of the                                        0                      0
          reporting period.
          Reports for which no management decision was made within 6 months                                       0                      0
          of issuance.




58 SEMIANNUAL REPORT TO THE CONGRESS
 Table V: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations without management decisions.



 Table VI: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.



 Table VII: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.



 Table VIII: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                                             Statistical Information 59
                                               Abbreviations
                                               and Acronyms

APS       American Payment Systems             IG          Inspector General
ASB       Acquisition Services Branch          IIA         Institute for Internal Auditors
ASTEP     Asset Servicing Technology           IRS-CI      Internal Revenue Service Criminal
          Enhancement Project                              Investigation
BIF       Bank Insurance Fund                  IT          Information Technology
BSA       Bank Secrecy Act                     MERIT       Maximum Efficiency, Risk-
CD        Certificates of Deposit                          Focused, Institution Targeted
CDR       Central Data Repository                          Examinations Program
CEO       Chief Executive Officer              NFE         New Financial Environment
DIRM      Division of Information Resources    OCAII       Office of Corporate Audits and
          Management                                       Internal Investigations
DRR       Division of Resolutions and          OCC         Office of the Comptroller of the
          Receiverships                                    Currency
DSC       Division of Supervision and          OERM        Office of Enterprise Risk
          Consumer Protection                              Management
ECIE      Executive Council on Integrity and   OI          Office of Investigations
          Efficiency                           OIG         Office of Inspector General
ECT       Electronic Crimes Team               OMB         Office of Management and Budget
EO        Executive Order                      PART        Program Assessment Rating Tool
ERM       Enterprise Risk Management           PCIE        President’s Council on Integrity
FBI       Federal Bureau of Investigation                  and Efficiency
FDIC      Federal Deposit Insurance            PDD         Presidential Decision Directive
          Corporation                          Results Act Government Performance and
FFIEC     Federal Financial Institutions                   Results Act
          Examination Council                  RTC         Resolution Trust Corporation
FISMA     Federal Information Security         SAIF        Savings Association Insurance
          Management Act of 2002                           Fund
FSBH      First State Bank of Harrah           SCS         San Clemente Securities, Inc.
GENESYS   General Examination System           UCC         United Custodial Corporation
HSPD      Homeland Security Presidential       XBAT        Extensible Business Reporting
          Directive                                        Language Business Analyst Tool
IBM       International Business Machines



                                                               Management and Performance Challenges 61
                                                     OIG Congratulations

Robert Allmang                                       can work together toward greater efficiencies
Robert Allmang retired after a federal career of     and improved timeliness. During his last few
more than 17 years. He served the Corporation        years with the OIG, his work on the OIG’s con-
in the Office of Corporate Audits and Internal       tract and internal audits helped ensure that the
Investigations’ liquidation activities in the late   FDIC effectively managed its programs, activi-
1980s. During that time he displayed a willing-      ties, and contracts.
ness to travel extensively and relocated twice to
accommodate the office’s geographical staffing
needs. Later, he volunteered to assist the OIG on    David R. Mathias
a joint effort with the U.S. General Accounting      David Mathias retired after almost 33 years of
Office (GAO) to audit the FDIC’s annual finan-       federal service. His impressive record included
cial statements. That OIG/GAO effort received        4 years with the U.S. Marine Corps, 16 years
favorable recognition throughout the OIG com-        with the General Accounting Office, and 5 years
munity as an exemplary model of how agencies         at the Resolution Trust Corporation. He culmi-




OIG retiree Robert Allmang.                          IG Gianni (left) with retiree David Mathias.


                                                                           Management and Performance Challenges 63
       nated his federal career after 8 years of service at
       the FDIC. At the FDIC OIG, David ensured the
       quality of nationwide IT support and technical
       assistance for all functions of the OIG. He suc-
       cessfully developed IT strategic plans, supported
       and coordinated development of management
       information systems, and planned for new hard-
       ware and software to equip OIG staff with the
       best technology available to do their jobs. He
       guided all in the OIG through the intricacies of
       technology with patience and good humor and
       contributed to the success of countless OIG
       activities.

       Tom Mroczko
       Tom Mroczko retired after more than 32 years of
                                                              Congratulations for Military Service
       federal service. His dedication and service to his     Congratulations to the OIG’s Gloria J. Hill, who received
       country was first demonstrated at the start of his     a Navy and Marine Corps Achievement medal in January
       federal career when he served in the United            2004 for her work in the U.S. Naval Reserve. As cited in
                                                              the award:
       States Army. Shortly after his military tour of
                                                                 Demonstrating exceptional skill, Yeoman First
       duty, he began a distinguished career with the            Class Hill expertly managed the flow of ships
       federal government, beginning with service as an          through the European area of responsibility during
                                                                 the massive and historic logistic movement in sup-
       auditor at the U.S. General Accounting Office.            port of Operation Iraqi Freedom. She expertly
       From there, he served as an auditor at the Gen-           maintained the common operating picture for over
                                                                 124 ships loading and discharging equipment in
       eral Services Administration, the Resolution              32 ports. Additionally, during the redeployment
       Trust Corporation, and finally at the Federal             phase of operations, she excelled as Operations
       Deposit Insurance Corporation. Since 1992, he             Duty Officer responsible for maintaining continuity
                                                                 of operations after working hours. Yeoman First
       was a key member of the OIG, providing valu-              Class Hill’s professionalism, personal initiative,
       able analysis and insight on numerous OIG                 and total dedication to duty reflected credit upon
                                                                 herself and were in keeping with the highest tradi-
       audits and projects. Tom’s experience and tech-           tions of Military Sealift Command and the United
       nical know-how proved invaluable when he                  States Naval Service.
       helped develop and implement the FDIC OIG’s
       congressionally mandated Material Loss Review
       Program. His work also served to strengthen the
       level of effectiveness and cooperation among the
       federal banking regulators in fulfilling their
       responsibilities to assess risk in the nation’s
       banking system and to protect the interests of
       depositors. (Photo unavailable.)




64 SEMIANNUAL REPORT TO THE CONGRESS
                    Federal OIG Accomplishments for Fiscal Year 2003
The FDIC OIG is proud to be part of the IG community. In A Progress Report to the
President, the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency report that during fiscal year 2003, the work of more than
11,000 employees of the Offices of Inspector General across government produced
impressive results. Thousands of audits, investigations, and other reviews offered recom-
mendations that promote economy, efficiency, and effectiveness, as well as prevent and
detect fraud, waste, and abuse in federal programs and operations. These results include:

  ■   Potential savings of nearly $18 billion
  ■   About 6,600 successful criminal prosecutions
  ■   Suspensions or debarments of about 7,600 individuals or businesses
  ■   Over 2,600 civil or personnel actions
  ■   Over 6,800 indictments and criminal informations
  ■   Nearly 200,000 complaints processed
  ■   More than 83 testimonies before the Congress

These accomplishments reflect the work of the Federal Offices
of Inspector General, whose combined FY 2003 budgets
totaled about $1.9 billion.

For more information on the IG community’s mission and
accomplishments, visit http://www.ignet.gov
The Office of Inspector General (OIG) Hotline is a convenient mechanism
employees, contractors, and others can use to report instances of suspected fraud,
waste, abuse and mismanagement within the FDIC and its contractor operations.
The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic
mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline is
designed to make it easy for employees and contractors to join with the OIG in its
efforts to prevent fraud, waste, abuse, and mismanagement that could threaten the
success of FDIC programs or operations.




To learn more about the FDIC OIG and for complete copies of audit
and evaluation reports discussed in this Semiannual Report, visit our
 homepage: http://www.fdicig.gov




Federal Deposit Insurance Corporation
Office of Inspector General
801 17th St., NW Washington, D.C. 20434
